<html>
<title> - THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE ARCTIC, PART II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]





 
   THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE 
                            ARCTIC, PART II

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2020

                               __________

                           Serial No. 116-59

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov

                          __________                       

             U.S. GOVERNMENT PUBLISHING OFFICE 
41-304 PDF            WASHINGTON : 2020                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           John Joyce, Pennsylvania
Elissa Slotkin, Michigan             Dan Crenshaw, Texas
Emanuel Cleaver, Missouri            Michael Guest, Mississippi
Al Green, Texas                      Dan Bishop, North Carolina
Yvette D. Clarke, New York           Jefferson Van Drew, New Jersey
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    Dan Bishop, North Carolina
Val Butler Deming, Florida           Jefferson Van Drew, New Jersey
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     5

                               Witnesses

Admiral Charles W. Ray, Vice Commandant, U.S. Coast Guard:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8
Mr. Michael J. Murphy, Deputy Assistant Secretary for European 
  and Eurasian Affairs, U.S. Department of State:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Ms. Marie A. Mak, Director for Contracting & National Security 
  Acquisitions, U.S. Government Accountability Office:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20


   THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE 
                            ARCTIC, PART II

                              ----------                              


                      Wednesday, February 5, 2020

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
Room 310, Cannon House Office Building, Hon. J. Correa 
(Chairman of the subcommittee) presiding.
    Present: Representatives Correa, Cleaver, Lesko, Katko, 
Bishop, and Drew.
    Mr. Correa. This committee will now come to order.
    The subcommittee is meeting today to receive testimony on 
the Northern Northern Border: Homeland Security Priorities in 
the Arctic, Part II. Without objection, the Chair is authorized 
to declare the subcommittee in recess at any point.
    I want to thank the Ranking Member Lesko and our panel of 
witnesses for joining us today, and I am going to take the 
credit, but I am going to give credit where credit is due. The 
Coast Guard had asked us to do this set of hearings on this 
issue months ago, and I think it is a good call. So thank you 
for bringing this issue to our attention.
    Today, we will discuss the U.S. Homeland Security 
priorities in the Arctic following a productive hearing with 
non-Government issues on this witness in September. We have 
seen the Arctic climate changing with diminishing ice openings 
and with maritime activity increasing in parts of the world 
that were essentially unnavigable and untouched in years 
before. It seems that we are ill-prepared for the changes 
brought about by a warmer climate in the Arctic.
    I am very concerned about the number of aggressive actions 
of other nations in the region, especially China and Russia. We 
in the United States, we have had a long history of supporting 
an internal rules-based order in order to foster a spirit of 
cooperation in the Arctic states. But in recent years, we have 
seen Russia expand its military installation in the area and 
expand its activities in the Arctic. They have invested heavily 
in assets to increase their maritime operations.
    Russia has the largest, or I should say a large fleet of 
icebreakers that numbers more than 50 and more on the way. 
China, that is more than 1,000 miles away from the area, has 
declared itself a near-Arctic state and is investing 
strategically in other Arctic nations to increase its presence 
and influence in the area.
    Russia and China seek economic interest in the region, rely 
heavily on opening up potential trade routes in the area as ice 
shelves continue to diminish. A new northern sea route would 
shorten the trip from east Asia to the western Europe area by 
more than 13,000 miles. Such a route would allow China to ship 
goods to Europe 2 weeks faster, I should say, than they can do 
it today. Russia has begun to demand a fee from ships to travel 
through international waters along the Northern Sea route over 
which it claims ownership.
    Along with new and additional maritime activities, melted 
ice in the Arctic will increase economic activities such as 
tourism, fisheries, energy exploration, infrastructure 
development, as well as other areas presenting major challenges 
to the United States. We must ensure development is sustainable 
with minimal environmental impacts and that it supports local 
communities, including the indigenous people.
    The presence of the Coast Guard, your presence in the 
Arctic and the State Department's diplomatic efforts to protect 
international cooperation will be critical to protecting our 
interests in the region. The Coast Guard's mission in the 
Arctic include regulation of shipping, fishing law, and ports 
of security, search and rescue, and support of scientific 
research. The Coast Guard is responsible for maintaining a U.S. 
presence in our territorial waters and defending our security 
and economic interests in the region.
    Right now, the Coast Guard is hampered by its Arctic 
mission because it only has 2 polar icebreakers and only one of 
which is a heavy-duty icebreaker.
    Congress has provided funding in 2019 for the Coast Guard 
to begin construction of its first new polar security cutter, a 
good initial investment in improving the Coast Guard's 
capabilities. But the Coast Guard has stated that 6 polar 
security cutters will be necessary to successfully execute its 
mission in the Arctic.
    Congress must continue to emphasize its supporting efforts 
with the Coast Guard and your needs as we will continue to 
value the Government Accountability's Office assistance in 
ensuring appropriate oversight of these acquisition programs. 
In the mean time, the Coast Guard will need to use other 
resources and capabilities to meet its mission in the Arctic. 
The lack of adequate Coast Guard resources will make the State 
Department's diplomatic work all that more important.
    Unfortunately, just when American leadership and 
cooperation in the Arctic is needed on the international stage, 
we have chosen to eliminate the State Department's position of 
the Special Representative for the Arctic.
    I look forward to hearing from the State Department and how 
it is ensuring appropriate leadership in the Arctic issues 
despite the loss of that position.
    My opinion, we need to invest more in our capabilities in 
the Arctic, not less, in order to ensure that the Coast Guard, 
the State Department, and its Government partners can secure 
the homeland at our northernmost border.
    I look forward to our discussion today, and I will now 
recognize the Ranking Member Lesko, of this subcommittee, for 
an opening statement.
    [The statement of Chairman Correa follows:]
                    Statement of Chairman Lou Correa
                            February 5, 2020
    Today's hearing will discuss U.S. homeland security priorities in 
the Arctic, following a productive hearing with non-Government 
witnesses on this topic last September. Already we have seen the 
Arctic's climate changing--with diminishing ice opening up maritime 
activity in a part of the world that was largely unnavigable and 
untouched. It seems the Federal Government is ill-prepared for the 
changes brought about a warmer climate in the Arctic. I am very 
concerned about the number of aggressive actions of other nations in 
this region, primarily those of Russia and China. The United States has 
a long history of supporting an international rules-based order in the 
spirit of cooperation by all Arctic states. In recent years we have 
seen Russia expand its military installations and activities in the 
Arctic, investing heavily in assets to increase its maritime 
operations. Russia has a large icebreaker fleet of more than 50 
icebreakers, with more on the way.
    China, located 1,000 miles away from the Arctic, has declared 
itself a ``near-Arctic state'' and is investing strategically in other 
Arctic nations to increase its presence and influence in the region. 
Russia and China's economic interests in the region rely on opening 
potential trade routes in the Arctic as ice shelves continue to 
diminish. A new Northern Sea Route would shorten the trip from East 
Asia and Western Europe from 13,000 miles to 8,000 miles. Such a route 
would allow China to ship goods to Europe 2 weeks faster than it can 
now. Furthermore, Russia has begun to demand a fee from ships to travel 
through international waters along the Northern Sea Route over which it 
claims ownership.
    Along with new and additional maritime activities, melted ice in 
the Arctic will increase economic activities such as tourism, 
fisheries, energy exploration, and infrastructure development, 
presenting major challenges. We must ensure development is sustainable, 
with minimal environmental impact, that it supports local communities, 
including indigenous people. The Coast Guard's presence in the Arctic 
and the State Department's diplomatic efforts to protect international 
cooperation will both be critical to protecting U.S. interests in the 
region. The Coast Guard's missions in the Arctic include regulation of 
shipping and fishing, law enforcement, port security, search and 
rescue, and support of scientific research. The Coast Guard is 
responsible for maintaining a U.S. presence in our territorial waters 
and defending our security and economic interests in the region. Right 
now, the Coast Guard is hampered in its Arctic mission because it has 
only 2 polar icebreakers--only 1 of which is a heavy-duty icebreaker.
    Congress provided funding in 2019 for the Coast Guard to begin 
construction of its first new Polar Security Cutter--a good initial 
investment in improving the Coast Guard's capabilities. But the Coast 
Guard has stated that 6 Polar Security Cutters will be necessary to 
successfully execute its missions in the Arctic. Congress must continue 
to prioritize supporting the Coast Guard's urgent needs, and we will 
continue to value the Government Accountability Office's assistance in 
ensuring appropriate oversight of these acquisition programs. In the 
mean time, the Coast Guard will need to use other resources and 
capabilities to meet its Arctic mission to the best of its ability. 
Additionally, the lack of adequate Coast Guard resources will make the 
State Department's diplomatic work all the more important. 
Unfortunately, just when American leadership and cooperation on the 
Arctic is needed on the international stage, the administration has 
chosen to eliminate the State Department position of the Special 
Representative for the Arctic.
    I look forward to hearing from the State Department how it is 
ensuring appropriate leadership on Arctic issues despite the loss of 
that position. We need to invest more in our capabilities in the 
Arctic--not less--in order to ensure that the Coast Guard, the State 
Department, and its Government partners can secure the homeland at our 
northernmost border.

    Mr. Correa. Mrs. Lesko.
    Mrs. Lesko. Thank you, Mr. Chairman, and I have to say I 
thought your opening statement was spot-on, and we have 
bipartisan agreement. In this whole partisan culture that is 
going on, I welcome bipartisan agreement on an issue. I also 
want to welcome a new Member to our subcommittee, 
Representative Van Drew. Welcome.
    Mr. Correa. Welcome, Mr. Van Drew. We do need another 
dentist on this committee.
    Mr. Van Drew. No such thing as too many dentists.
    Mrs. Lesko. There you go.
    Well, I am pleased to see the subcommittee meeting today to 
gain additional perspectives on this important topic facing the 
United States' National security. Our previous hearing on the 
Arctic gave the subcommittee valuable stakeholder perspectives 
on the Homeland Security implications of a changing strategic 
dynamic in the region, and I look forward to hearing today how 
the U.S. Coast Guard and State Department are responding.
    The many international, legal, economic, scientific, and 
security challenges facing the Arctic present a complex set of 
issues that require close interagency collaboration and a 
united effort to work with our partners and present strength to 
our adversaries. I hope to hear today how the Coast Guard and 
State Department are working together to advance U.S. interests 
and what work is being done with our allies and partners.
    As we heard from our witnesses at the first hearing on this 
topic, the Arctic is quickly becoming a region in which 
commerce comes face-to-face with great power competition. The 
United States must work to protect its interests in 
international norms surrounding freedom of navigation. For this 
reason, I am eager to hear from our panel today about what 
resources are needed to accomplish a diverse and critical 
mission set and what additional implications for Homeland 
Security we can examine.
    The Coast Guard is the sole operator of America's polar 
capable fleet, thus placing the service at a critical center of 
maintaining U.S. sovereignty in the Arctic.
    However, this reality also requires us to understand the 
Coast Guard's limitations related to an aging fleet consisting 
of a single heavy icebreaker, the Polar Star, which as we all 
know, suffers from age-related mechanical issues. I am pleased 
that Congress has finally funded a new polar security cutter 
and has begun funding for preparation of another.
    However, it is incumbent upon us to continue advocating for 
the resources and infrastructure needed by our men and women in 
uniform. As we ask more and more of the Coast Guard in the 
Arctic, we should be steadfast in our commitment to the service 
and its needs, and so I am glad that we are in agreement on 
this issue, Mr. Chairman.
    The Homeland Security implications of a changing Arctic 
dynamic present both challenges and opportunities for the 
United States, and I am glad that the subcommittee is ensuring 
that we are part of the conversation.
    Thank you, Mr. Chairman, thank you to our witnesses today.
    I yield back the balance of my time.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
                              Feb. 5, 2020
    Thank you, Mr. Chairman. I am pleased to see the subcommittee 
meeting today to gain additional perspectives on this important topic 
facing U.S. National security. Our previous hearing on the Arctic gave 
the subcommittee valuable stakeholder perspectives on the homeland 
security implications of a changing strategic dynamic in the region, 
and I look forward to hearing today how the U.S. Coast Guard and State 
Department are responding.
    The many international legal, economic, scientific, and security 
challenges facing the Arctic present a complex set of issues that 
require close interagency collaboration and a united effort to work 
with our partners and present strength to our adversaries. I hope to 
hear today how the Coast Guard and State Department are working 
together to advance U.S. interests and what work is being done with our 
allies and partners.
    As we heard from our witnesses at the first hearing on this topic, 
the Arctic is quickly becoming a region in which commerce comes face-
to-face with great power competition. The United States must work to 
protect its interest and international norms surrounding freedom of 
navigation. For this reason, I am eager to hear from our panel today 
about what resources are needed to accomplish a diverse and critical 
mission set and what additional implications for homeland security we 
can examine.
    The Coast Guard is the sole operator of America's polar-capable 
fleet, thus placing the service at the critical center of maintaining 
U.S. sovereignty in the Arctic. However, this reality also requires us 
to understand the Coast Guard's limitations related to an aging fleet 
consisting of a single heavy icebreaker, the Polar Star, which suffers 
from age-related mechanical issues. I am pleased that Congress has 
finally funded a new Polar Security Cutter and has begun funding for 
preparation of another; however, it is incumbent upon us to continue 
advocating for the resources and infrastructure needed by our men and 
women in uniform. As we ask more and more of the Coast Guard in the 
Arctic, we should be steadfast in our commitment to the service and its 
needs.
    The homeland security implications of a changing Arctic dynamic 
present both challenges and opportunities for the United States, and I 
am glad that the subcommittee is ensuring that we are part of the 
conversation. Thank you, and I yield back the balance of my time.

    Mr. Correa. Thank you, Mrs. Lesko. Members are reminded 
that statements may be submitted for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            February 5, 2020
    I would like to thank Chairman Correa and Ranking Member Lesko for 
holding today's hearing on homeland security priorities in the Arctic--
our Nation's northernmost border. I also would like to thank today's 
witnesses for sharing their valuable expertise. Under the current 
administration, a great deal of attention has been focused on our 
Southern Border. One thing that I appreciate about this committee, 
however, is our ability to simultaneously examine the vast range of 
security matters facing the homeland.
    Among these matters is the U.S. Coast Guard's mission to secure and 
protect the maritime domain--which includes U.S. Arctic waters. Many 
forget that the United States is, after all, an Arctic nation, given 
the geography of Alaska. The vastness of U.S. Arctic waters and a 
changing environment place increasing demands on the Coast Guard. The 
Coast Guard has identified its responsibilities in the Arctic as 
ensuring ``the homeland security, safety, and environmental stewardship 
of U.S. waters.'' Executing this mission in the region is becoming more 
difficult, as the Arctic's strategic importance is growing, and 
maritime activity is increasing.
    Studies show this increase in maritime activity is linked directly 
to climate change, as global warming has caused an overall decrease in 
the duration and thickness of sea ice coverage. Warmer temperatures are 
also inviting a rise in recreational activity and offshore exploration 
of natural resources. In addition to climate change, the Coast Guard 
has had to contend with the increased presence and aggression of 
geopolitical actors, like Russia and China, in the region. Both nations 
have identified increased presence in the Arctic as a strategic 
priority, motivated in part by the potential economic benefits that 
Arctic shipping routes could bring. Russia is increasing its military 
presence in the Arctic, building on what is already the world's largest 
number of icebreakers. With almost 50 icebreakers, Russia has the 
capabilities, personnel, and infrastructure needed to operate in the 
Arctic year-round.
    China has likewise shown its Arctic ambitions, directing Chinese 
companies and Government agencies to maintain an increased presence in 
the region to help create what it calls a ``Polar Silk Road.'' China 
has also announced its first domestically-built icebreaker and plans 
for a nuclear-powered icebreaker. As we learn about the emerging 
capabilities of other geopolitical actors in the region, I am concerned 
about the Coast Guard's capability gaps in the Arctic--including a need 
for additional icebreakers and long-range patrol vessels. The Coast 
Guard currently has just one heavy polar icebreaker, the Polar Star, 
and one medium icebreaker, the Healy. The Polar Star is well past its 
service life and conducts missions in Antarctica--not the Arctic.
    Thankfully, Congress has made significant investments in building 
new Coast Guard assets, including funds to begin construction on a new 
Polar Security Cutter. This first Polar Security Cutter will replace 
the Polar Star and its responsibilities in the Antarctic; only a second 
Polar Security Cutter to be delivered in 2025 or later would finally 
provide the Coast Guard with icebreaking capabilities in the Arctic. It 
is evident that the Coast Guard, and the U.S. Government as a whole, 
has some catching up to do to be able to protect U.S. interests in the 
Arctic. Without increased attention and investment in the strategies, 
resources, and personnel needed to operate at our northernmost border, 
the Coast Guard will risk falling further behind. I look forward to 
hearing from today's witnesses about homeland security priorities in 
the Arctic and how Congress can best support the Government's critical 
missions in the region.

    Mr. Correa. I will welcome our panel of witnesses.
    Our first witness, Admiral Charles Ray, is the vice 
commandant of the United States Coast Guard. I welcome you, 
sir, and I recognize you for 5 minutes of comments. You may 
begin.

  STATEMENT OF ADMIRAL CHARLES W. RAY, VICE COMMANDANT, U.S. 
                          COAST GUARD

    Admiral Ray. Yes, sir.
    Good morning, Chairman Correa, Ranking Member Lesko, 
distinguished Members of the subcommittee. On behalf of Admiral 
Shields and all the women and men of the United States Coast 
Guard, I want to thank you for your unwavering support of our 
service.
    Arctic is growing increasingly important, and I appreciate 
the opportunity to appear today and discuss the Coast Guard's 
proactive strategy to advance U.S. National security interests 
in the region. I ask that my previous written testimony be 
entered into the record.
    Mr. Correa. Without objection, sir.
    Admiral Ray. Thank you, sir.
    For over 150 years, your Coast Guard has been America's 
primary maritime presence in the Arctic, and the demand for our 
services is intensifying. As a result, the opening waters in 
America's northern coast commercial opportunities range from 
fishing to energy production, rare mineral extraction, cruise 
operations, ecotourism abound. There is an overall increase in 
human activity in this region, and it indicates the need for 
increasing Coast Guard presence. Also, this combination of 
events has led to the opportunity for nations, other nations, 
to seek to shape the security environment, expand their 
influence, and advance their own interests.
    As was stated by the Chairman, Russia's got the world's 
largest icebreaker fleet by large. Its ability to visibly 
project force, coupled with the renewed interest in their 
infrastructure in the Arctic region and increase in military 
activities, are indicative of the strategic significance they 
place on the region.
    As was also stated, China, a non-Arctic state, not even 
within 900 miles, is also investing heavily in the Arctic. They 
are emblematic of their global influence campaign. Whether from 
Africa to South America, anywhere on the planet you put it, 
they are working from the same playbook.
    This year, China took delivery of its first domestically-
built icebreaker, Xuelong 2. They had the Xuelong 1 which they 
obtained from Ukraine and refitted, and so within about 2 
years, they are going to surpass the United States in their 
icebreaker capability. If left unchecked, China and Russia's 
behavior risks fracturing the tenuous stability and rules-based 
governance in the Arctic.
    To address the Nation's expanding National security needs 
and built on our 150 years of experience, the Coast Guard 
published an updated Arctic strategic outlook in April 2019 
which reaffirms our commitment to promoting U.S. leadership in 
the region and preserving a peaceful, cooperative, rules-based 
region.
    As you all have stated, leadership begins with presence, 
and that is a challenge. Our Nation's icebreaking fleet is 
aging, and we do not have the capacity to cover where we think 
we should be at the present time. But thanks to this 
subcommittee, the Congress, and the administration, we have 
turned the corner on that, and I am really pleased that we have 
started to rebuild our polar security cutter fleet.
    Leadership in this region also requires operations in 
communities, ports, and waters, and we demonstrate this yearly 
through an operation called Arctic Shield. It is mobile, it is 
scalable, and we connect with the indigenous people of the 
region and participate in all of our other missions.
    As many nations aspire to expand their roles, the Coast 
Guard, we work collaboratively with these multi-lateral 
international organizations and work with the State Department 
and particularly with the Arctic Coast Guard Forum, and we 
participate in things that we can agree on, fisheries and 
pollution response and things like that, so that is a look in 
the right direction.
    However, to continue to protect our region, we need other 
assets up there to improve communication, maritime domain 
awareness, navigation. I was up on the cutter Healy north of 
the North Slope about 60 miles. For almost a month this past 
summer, and there were 7 up there, they were without any 
communications other than HF radio. I mean, they were literally 
off the grid. That takes a whole-of-Government approach, and I 
am sure we will be able to do that.
    In summary, a strong United States Coast Guard empowers the 
Nation to lead in the Arctic and shape the region as a safe, 
cooperative, and prosperous domain. I thank you for your 
support and look forward to your questions.
    [The prepared statement of Admiral Ray follows:]
                  Statement of Admiral Charles W. Ray
                            February 5, 2020
                              introduction
    Good morning Mr. Chairman and distinguished Members of the 
subcommittee. It is my pleasure to be here to discuss the U.S. Coast 
Guard's strategy and operations to safeguard National security 
interests and advance safe, secure, and environmentally responsible 
maritime activity in the Arctic Region.
    The Coast Guard has been operating in the Arctic Ocean since 1867, 
when the United States purchased Alaska from Russia. Since that time, 
the state of affairs in the Arctic has evolved significantly. The ice 
is receding; storms are increasing in frequency and magnitude; the 
coast is eroding; and permafrost is thawing. Alaskan residents are 
striving to evolve their resiliency and to sustain their culture and 
way of life while residents and non-residents alike are pursuing 
emerging opportunities. For the Coast Guard, the demand signal for our 
services is expanding along with the operational environment, 
exacerbating the tyranny of distance of the region. The types of 
commercial activity are morphing, from oil and gas exploration a few 
years ago to the recent surge in cruise ship activity and expanding 
environmental tourism. These rapid changes in types and location of 
activity, along with the changes in the physical environment, magnify 
the challenges in executing the Service's mission to advance safety, 
security, sovereign rights, and stewardship across the Arctic.
    Simultaneously, the geopolitical environment is rapidly changing as 
state and non-state actors seek to advance their own interests in the 
Arctic. Allies, partners, and competitors alike increasingly compete 
for diplomatic, economic, and strategic advantage. The National Defense 
Strategy describes a world no longer at either peace or war but rather 
one of enduring great power competition.
    Shaping and influencing this competition continuum requires a 
mixture of diplomatic, informational, military, economic, financial, 
intelligence, and law enforcement efforts to achieve and sustain 
National strategic objectives. As the only U.S. Armed Force with both 
military and law enforcement authorities, combined with membership in 
the intelligence community, the Coast Guard seamlessly bridges the 
layers across this continuum. Specifically, the Coast Guard's 
constabulary function and broad authorities serve as a critical bridge 
between the hard-power lethality of the Defense Department and soft-
power diplomacy of the State Department. This strategic versatility is 
well-suited for operating in ambiguous environments. This makes the 
Coast Guard a unique agency to cultivate strong international 
relationships and build a coalition of Arctic partners based on mutual 
interests and values that strengthen regional stability and enhance 
prosperity across the region.
    Our recently published 2019 Arctic Strategic Outlook reaffirms the 
Service's commitment to advancing and protecting National security 
interests in the region through American leadership, partnership, unity 
of effort, and continuous innovation. The Outlook establishes 3 lines 
of effort to achieve long-term success. First, we will enhance 
capability to operate effectively in a dynamic Arctic domain; second, 
we will strengthen the rules-based order; and third, we will innovate 
and adapt to promote resilience and foster prosperity. Meeting the 
Nation's needs and interests to secure the Arctic requires significant 
investment and a whole-of-Government approach across multiple 
Departments, agencies, and services. The Coast Guard's value in this 
whole-of-Government approach is our experience, leadership, model 
behavior, and ability to compete below the level of armed conflict. 
Therefore, strengthening the Coast Guard empowers the Nation to secure 
the Arctic against threats and shape the region as a safe, cooperative, 
and prosperous domain.
            national security interests in the arctic region
    The United States is an Arctic nation with extensive sovereign 
rights and responsibilities, and our National security interests in the 
Arctic are significant, in part due to the reemergence of great power 
competition in the region. As access to the region evolves, many Arctic 
and non-Arctic nations aspire to assert or expand their role in 
governing the region; the dynamic operational environment continues to 
present risks and opportunities for a broad spectrum of stakeholders. 
To safeguard our National interests, the United States must plan for a 
robust, year-round maritime presence commensurate with the expanding 
interest in the Arctic's strategic value, in its natural resources, and 
in its potential as a transportation corridor between Asia, Europe, and 
North America. If we are not vigilant and proactive, other Arctic and 
non-Arctic nations will outpace us in assuring their strategic 
interests in the region in ways that may adversely affect the United 
States' interests.
    Actions and intentions of Arctic and non-Arctic nations shape the 
security environment and geopolitical stability of the region. In 
particular, our 2 near-peer competitors, Russia and China, are 
demonstrably intent on exploiting the maritime domain to advance their 
interests. Twenty percent of Russia's landmass is north of the Arctic 
Circle, and both onshore and offshore resource (minerals, oil, and gas) 
development is crucial to the Russian economy. Russia is also advancing 
the growth of the Northern Sea Route (NSR) for trans-Arctic shipping 
and other commercial opportunities.
    The NSR continues to set new shipping records, last year reaching 
29 million tons of goods transported along the route. Natural resource 
extraction is the main contributor to these increases, predominantly 
oil and gas shipments from their Yamal facilities. If their energy 
projections come to fruition, then transport volumes on the NSR could 
reach 100 million tons per year by 2030.
    From a military perspective, Russia's long Arctic coastline, once 
stripped of sea ice in the future, will be both vulnerable, and able to 
support naval fleets readily deployable between the Atlantic and 
Pacific. The Russian government is currently rebuilding and expanding 
military bases that had previously fallen into disuse. These renewed 
capabilities include air bases, ports, weapons systems, troop 
deployments, domain awareness tools, and search-and-rescue response. 
Additionally, Russia has the world's largest number of icebreakers. 
With over 50 icebreakers that include 4 operational, nuclear-powered 
heavy icebreakers, and plans to build an additional 7 nuclear-powered 
icebreakers, Russia maintains the capabilities, capacities, experienced 
crews, and infrastructure necessary to operate and surge into the 
Arctic year-round.
    China, a non-Arctic nation, has recently taken an active role in 
Arctic development, pursuing economic investments with every Arctic 
nation in key strategic areas, such as oil and gas development, ports, 
railways, and infrastructure. It has purchased numerous resource 
deposits throughout the region, including uranium, energy, and rare-
earth elements. With the release of their Arctic Policy paper in 
January 2018, China declared itself a nation intrinsically tied to the 
Arctic, and signaled their intention to play a security and governance 
role in the region. China has directed Chinese companies and government 
agencies to become more involved in Arctic affairs, and is rapidly 
developing its ability to operate in the region. This year, China 
launched its first home-built icebreaker and has begun designing an 
even more powerful and potentially nuclear-powered Polar icebreaker 
expected to have twice the icebreaking capability of its newest vessel. 
With 3 icebreakers China will have greater access than the United 
States currently has to the Arctic, its ports, and its resources. The 
concern with Chinese activities in the Arctic is the potential to 
disrupt the cooperation and stability in the region. Around the globe, 
China uses coercion, influence operations, debt-trap diplomacy, and 
implied military threats to persuade other states to heed China's 
strategic agenda. China views the Arctic as a component of its One 
Belt, One Road initiative, recently dubbed the Polar Silk Road. China's 
ambitions and outreach are fraught with risk, often times diminishing 
the sovereignty of states and fracturing the rules-based governance 
currently employed in the region.
    National security interests extend to the local level as well. For 
example, economic, environmental, and human security and stewardship 
are also linked to the changes and expanding activity in the Arctic. 
Significant increases in natural resource extraction in the U.S. Arctic 
have not yet materialized, but industries continue to explore 
opportunities so that they are positioned to leverage economic 
prospects as they emerge. Current industry growth in the Arctic 
includes a significant increase in cruise tourism and transpolar 
flights, which could potentially increase search-and-rescue missions 
and risk to the pristine environment. Additionally, we have observed 
steady but measured growth of shipping through the Bering Strait over 
the past 10 years, across all sectors of industry. As the Arctic 
continues to experience longer and larger periods of reduced or ice-
free conditions, commercial interest and exploitation will grow. A 
recent U.S. Committee on the Marine Transportation System report 
projects that by 2030, vessel traffic through the Bering Strait could 
increase to more than 370 transits, which is roughly 3 times the 2008 
traffic levels. This potential rise will increase the demand for the 
Coast Guard to monitor, protect, and regulate increased maritime 
activity, such as de-conflicting shipping corridors in U.S. waters with 
subsistence hunting and fishing communities.
    Food security is another significant issue for Arctic residents and 
our Nation as a whole. The Bering Sea provides more than half of the 
wild-caught fish and shellfish in the United States, and the wildlife 
for subsistence harvesting. Alaska is ranked seventh in the world in 
global fish exporters, and their seafood industry accounts for almost 
$6 billion a year in total economic activity. Additionally, 
approximately 70 percent of the U.S. Arctic population relies on 
subsistence hunting and fishing for survival, the vast majority of 
which comes from the sea. Thus, changes occurring in the Arctic Ocean 
are increasing the risk to food security for the globe, from shipping 
that disrupts migration patterns, to increased risk of pollution 
incidents, to growth in illegal, unreported, and unregulated fishing as 
fish stocks migrate.
    As human activity continues to increase in the Arctic region, 
challenges associated with legal and illicit activity plus state and 
non-state actors are likely to increase. In the face of this 
competition continuum, the Coast Guard's value proposition is even more 
critical in the Arctic and around the globe. The Service upholds 
freedom of the seas and the rules-based order by setting and enforcing 
standards of behavior in the maritime domain.
         balancing national security interests across the globe
    The Coast Guard possesses a broad suite of authorities and 
capabilities unique from the other armed services and traditional 
instruments of National power. As previously noted, the Coast Guard's 
authorities expand beyond traditional military and intelligence roles, 
to include law enforcement and regulatory roles. This combination, 
along with a multitude of steady-state international bilateral 
agreements, offers a distinct compliment to conventional defense forces 
in the on-going struggle to compete below the level of armed conflict.
    Coast Guard international engagements complement more traditional 
U.S. military posturing. Regular and persistent Coast Guard presence 
and peaceful engagements support regional stability while positioning 
the United States as the global maritime security partner of choice. 
The Coast Guard operates around the world in accordance with over 60 
international bilateral agreements, to include 11 with Oceania nations.
    Furthermore, the Service is also party to and, in many cases, 
serves in a leading capacity within a variety of multilateral forums 
including the North Pacific Coast Guard Forum, Arctic Coast Guard 
Forum, South East Asia Maritime Law Enforcement Cooperation, and the 
Africa Maritime Law Enforcement Partnership. This combination of 
access, authorities, and international acceptance, offers an 
indispensable opportunity of regional support and stability in this new 
era of competing influence.
    As the world's preeminent coast guard, the U.S. Coast Guard is 
logically the most suited to build partner capacity in maritime law 
enforcement, search and rescue, marine safety, fisheries management, 
and conservation--all of which are traditional Coast Guard missions. 
These missions, incidentally, are in growing demand across the globe. 
Illegal, Unreported, and Unregulated (IUU) fishing, in particular, is a 
priority issue impacting global stability, in the Atlantic, across the 
Pacific, and even in Antarctica, where many economies heavily depend on 
local fish stocks as a primary source of protein and personal income.
    The Service, through its internationally-recognized maritime law 
enforcement expertise and a multitude of bilateral and related ship 
rider agreements, offers viable options to augment partner nation law 
enforcement capacity to patrol their respective exclusive economic 
zones. These efforts are essential to preserving, protecting, and 
defending critical regional and migratory fish stock sustainability and 
economic vitality while simultaneously countering the malign influence 
and predatory practices of globally-spread powers such as China.
            the coast guard in alaska and the arctic region
    As stated, our 2019 Arctic Strategic Outlook reaffirms our 
commitment to American leadership in the region and articulates the 
ends, ways, and means to promote and safeguard National security in the 
Arctic. This includes waging a campaign for safety, all sovereign 
rights, and stewardship through cooperation; addressing competition 
below the level of conflict; and preparing for conflict should it 
arise. The following highlights some of the initiatives that have 
particular impacts on our National and international security, but 
these activities must be part of an integrated, whole-of-Government 
approach to security in the Arctic.
                          strategic leadership
    As many nations and other stakeholders across the world aspire to 
expand their roles and activities in the Arctic, the Coast Guard is 
working collaboratively through international bodies to address the 
emerging challenges and opportunities in the region. One example is our 
support to the Arctic Council, which is a high-level international 
forum focused primarily on environmental protection and sustainable 
development issues in the Arctic region. The Council is composed of the 
8 Arctic nations, 6 Arctic indigenous groups, observer nations 
(including China), and non-governmental organizations that have 
observer status. The Coast Guard plays a significant role in supporting 
our Nation's existing engagement in Arctic Council activities through 
representation on 2 standing working groups--Emergency Prevention, 
Preparedness & Response (EPPR), and Protection of the Arctic Marine 
Environment (PAME).
    Under the EPPR working group, the Coast Guard leads the U.S. 
Government delegation and serves as Chair of the Marine Environmental 
Response Experts Group. Within PAME, the Coast Guard participates in 
the Shipping Experts Group where we support projects such as mitigation 
of risks associated with the use and carriage of heavy fuel oil by 
vessels in the Arctic. The Coast Guard also served on the Council's 
Task Force on Arctic Marine Cooperation and has been active in other 
task forces that established the 2011 Arctic Search and Rescue 
Agreement, the 2013 Oil Spill Prevention and Response Agreement, and 
the 2015 Framework for Oil Pollution Prevention.
    The Coast Guard has also supported Arctic safety through other 
international bodies such as the International Maritime Organization 
(IMO). The Coast Guard was instrumental in the IMO's development and 
adoption of the International Code for Ships Operating in Polar Waters 
(Polar Code) to cover the design, construction, equipment, operational, 
training, and environmental protection matters relevant to ships 
operating in the Polar regions. In 2017, the Coast Guard completed a 
rulemaking process to issue Polar Ship Certificates to U.S. vessels. We 
also developed and promulgated guidance to industry and our Captains-
of-the-Port on how to ensure compliance with the Polar Code.
    Additionally, in November 2017, the Coast Guard collaborated with 
the Russian Federation to jointly develop and submit a proposal to the 
IMO to establish a system of two-way routes in the Bering Strait and 
Bering Sea. The Coast Guard also submitted an associated proposal to 
establish ``Areas to be Avoided'' in 3 environmentally-sensitive areas. 
The objective was to advance the maritime transportation system in the 
region; promote the safe, responsible flow of commerce; and de-conflict 
the commercial uses of the waterways with subsistence activities. The 
IMO adopted these measures at the 99th session of its Maritime Safety 
Committee, and the provisions entered into force in December 2018. 
These are but two examples of the Coast Guard being proactive in 
addressing emerging international and domestic maritime concerns in the 
Arctic.
    Last, the Arctic Coast Guard Forum (ACGF) is a bridge between 
diplomacy and operations. Formally established in October 2015, the 
ACGF operationalizes all of the elements of our Arctic strategy as well 
as the objectives of the Arctic Council. It is a unique, action-
oriented maritime governance forum where the Coast Guard and our peer 
agencies from the other 7 Arctic nations strengthen relationships, 
identify lessons learned, share best practices, carry out exercises, 
conduct combined operations, and coordinate emergency response 
missions.
    In April 2019, the ACGF conducted its second live exercise, 
POLARIS, which incorporated 6 ships and 5 aircraft from the ACGF member 
nations to respond to a simulated cruise ship in distress near Finland. 
The exercise was a successful demonstration of combined operations with 
the 8 ACGF nations and highlights the criticality of coordination in 
maritime environmental response and the responsibility to ensure 
search-and-rescue resources are prepared to respond.
             coast guard operations in the american arctic
    Operation ARCTIC SHIELD is the Coast Guard's year-round planning 
and operational endeavor that provides a flexible, mobile, and scalable 
presence in the Arctic domain. In 2019, ARCTIC SHIELD (AS19) operations 
advanced National and Coast Guard strategic goals by aligning 
operations to mitigate real-world threats and leverage opportunities of 
strategic interest.
    To promote regional resilience and strengthen the maritime 
transportation system, the Coast Guard spearheaded a Marine Safety Task 
Force (MSTF) to conduct missions in the remote regions of their Area of 
Responsibility (AOR). Employing active and reserve surge personnel, the 
MSTF deployed to and engaged with 102 local communities to perform 
marine safety and marine environmental protection missions in villages 
not on the road system in the Arctic and Western Alaska. In addition to 
the summer surge support, a major contributor to the MSTF success has 
been its partnerships: The Civil Air Patrol transportation saved 
valuable resources and allowed personnel to transit more seamlessly 
between remote villages.
    The MSTF teams inspected over 60 percent of the region's 380 
regulated bulk oil facilities--a massive improvement over the prior 
annual average of 12 percent. Frequent inspections and proactive 
communications between the Coast Guard and facility operators will 
reduce the environmental risk to remote communities, help remote 
villages build capacity to respond, and set baselines for resilience 
and awareness as their environment rapidly changes.
    From July to October, MH-60 helicopters and crews deployed to 
Forward Operating Location Kotzebue and to Utqiagvik to conduct Coast 
Guard missions. This year, those helicopters completed 25 SAR cases, 
saved 13 lives, and assisted 28 others in an environment harsher than 
anywhere else the Coast Guard operates. Additionally these assets 
improved the Coast Guard's maritime domain awareness in the Arctic and 
provided critical support to Federal and State personnel studying 
marine mammals. The Coast Guard partnered with DoD to leverage their 
strategic lift capabilities to deploy the assets to Kotzebue and the 
North Slope. Additionally, when the helicopters made the unplanned 
shift to Utqiagvik in September, the Coast Guard leveraged a long-
standing positive partnership with the North Slope Borough to gain 
critical hanger space and logistical support on short notice. The Coast 
Guard would not have been able to complete its scheduled deployment to 
the Arctic and provide SAR coverage to North Slope mariners without the 
efforts and support from both. The Coast Guard departed Utqiagvik on 
October 31, 2019, but subsistence whale hunting extended beyond the 
traditional season. This highlights the changing operational 
environment not only for the Coast Guard but also for Arctic residents. 
The lengthened ``shoulder'' seasons of open water are beyond the period 
in which the Coast Guard has the resources to be present. Without the 
Coast Guard's highly mobile expeditionary forces, risk to mariners and 
coastal residents will escalate as maritime activity and traffic 
expands throughout the vast Arctic.
    AS19 exercised the Coast Guard's expeditionary capability by 
deploying a team from our Deployable Specialized Forces in California 
to conduct shore-based law enforcement operations for the Kotzebue 
salmon state fishery that consists of nearly 100 small open skiffs. The 
enforcement operation reinforced several years of extensive marine 
prevention outreach, education, and training with these fishers. 
Planning and executing this mission highlighted the logistical and 
administrative challenges involved in supporting mission execution in 
the Arctic. This deployed law enforcement team provided 3 weeks of on-
water presence and contacted 59 commercial fishing vessels and 
conducted 27 boardings with 5 voyage terminations. The operation 
bolstered community support from the mayor and local fishermen and 
rallied the community to improve their own safety and survivability at 
sea.
    In the absence of a consistent law enforcement presence in the 
region, the Coast Guard must develop and exercise expeditionary 
capability to project surface forces into the Arctic as the weather 
patterns are less predictable and maritime activity continues to 
evolve. This team's employment points to the urgent need to modernize 
assets, infrastructure, and platforms to effectively operate and 
provide presence in the Arctic.
    In 2020, operations will be supported with cutter, aircraft, and 
shoreside presence across Western and Northern Alaska. Specific 
activities include establishing a regional SAR response capability, 
conducting boardings to promote fishing vessel safety, facility and 
vessel inspections, gold dredge fleet inspections, maritime safety 
compliance enforcement, and ice rescue training.
    Planned activities also include testing and improving oil spill 
preparedness and response capabilities, conducting a commercial 
aircraft crash-related mass rescue exercise, and completing a joint 
maritime pollution contingency exercise with international partners. 
Year-round outreach efforts will continue to deliver education and 
awareness services to Arctic communities and outlying native villages.
    As presence equals influence, the Coast Guard must continue to 
evaluate options to advance our 2019 Arctic Strategic Outlook as well 
as National interests in the region. The resurgence of nation-state 
competition over the past 5-10 years has coincided with the dramatic 
changes in the physical environment of the Arctic. This reality has 
elevated the Arctic's prominence as a strategically competitive space. 
The Coast Guard, and the Nation, have limited means to respond to, 
intercept, or collect information on vessels operating in the Arctic 
region.
              icebreaking capacity and acquisition status
    The ability for the United States to lead in the Arctic, both 
strategically and operationally, hinges on having the capabilities and 
capacity (presence) to protect our National sovereignty and safeguard 
our homeland security interests. The foundation of the Coast Guard's 
operational presence and influence is U.S. icebreakers, whose purpose 
is to provide assured, year-round access to the polar regions for 
executing National security missions within existing Coast Guard 
authorities.
    Our heavy icebreakers must be fully interoperable with DoD, 
international allies, and partners to optimally carry out National 
maritime homeland defense and homeland security missions. Thus, they 
will include sufficient space, weight, and power to conduct the full 
complement of multi-mission activities that support our Nation's 
current and future National security interests in the Arctic.
    The 2010 High Latitude Mission Analysis Report (HL MAR) identified 
the need for 6 new polar icebreakers (at least 3 of which must be 
heavy) under the assumption that, in the future, the Coast Guard would 
be required to perform 9 of its 11 statutory missions year-round in the 
Arctic, and meet all icebreaking needs in support of the United States 
Antarctic Program.
    In 2017, the Coast Guard's Center for Arctic Study and Policy 
completed an addendum to the HL MAR. The objectives were to provide a 
broad overview of changes in the polar regions over the last 7 years 
and to provide specific information for use in determining potential 
impacts on mission areas in the polar regions. This addendum provides 
confidence in the original findings and encourages the sustained 
reliance on its initial recommendations on the Nation's need for 6 
icebreakers, 3 of which must be heavy icebreakers.
    The current Coast Guard icebreaker capacity is 1 heavy polar 
icebreaker, CGC POLAR STAR--commissioned in 1976, and 1 medium 
icebreaker, CGC HEALY--commissioned in 2000. The primary differences 
between heavy and medium icebreakers are endurance and power. The Coast 
Guard considers a heavy icebreaker to be one that can break at least 6 
feet of ice at a continuous speed of 3 knots and operate year-round in 
the Arctic, with the necessary systems and endurance to protect its 
crew in the event it has to ``winter-over'' in substantial ice 
conditions. Conversely, medium icebreakers are designed to operate 
seasonally in the Arctic.
    Due to the strong support of the administration and Congress, the 
fiscal year 2019 appropriation included full funding for the 
acquisition of our first Polar Security Cutter (PSC), and some long 
lead time materials for the second. This investment sends a strong 
message that the Nation is serious about our interests in the Arctic. 
In April of last year, the joint Coast Guard and Navy Integrated 
Program Office (IPO) awarded VT Halter Marine Inc., of Pascagoula, 
Mississippi, a fixed price incentive (firm) contract for the detail 
design and construction of the lead PSC. We are as close as we have 
been in over 40 years to recapitalizing our icebreaking fleet, and 
continued investment will ensure we meet our Nation's growing needs in 
the rapidly evolving and dynamic polar regions.
    The Coast Guard also understands that we must maintain our existing 
heavy and medium icebreaking capability while proceeding with 
recapitalization. Construction on the first PSC is planned to begin in 
2021 with delivery planned for 2024; however, the contract includes 
financial incentives for earlier delivery. Maintenance of POLAR STAR 
will be critical to sustaining this capability until the new PSCs are 
delivered. Robust planning efforts for a service life extension project 
on POLAR STAR are already under way and initial work for this project 
will begin in 2020, with phased industrial work occurring annually from 
2021 through 2023. The end goal of this process will be to extend the 
vessel's service life until delivery of at least the second new PSC.
                          shore infrastructure
    In addition to having the necessary platforms to maintain our 
presence in the Arctic, the Coast Guard maintains a robust shore 
infrastructure laydown in Alaska. Shore facilities support all Coast 
Guard operations and personnel, as well as provide required 
infrastructure to support the needs of the Service's operational 
communities. Investments in shore infrastructure are critical to 
modernizing the Coast Guard and equipping our workforce with the 
facilities required to meet mission.
    With approximately 10 percent of the Coast Guard's real property 
inventory located in Alaska, the need for proper capital investments is 
all the more critical given the vast distances between shore facilities 
in that region. We are currently building waterfront facilities and 
shore infrastructure to support the delivery of 6 new Fast Response 
Cutters (FRC) and 2 Offshore Patrol Cutters (OPC) to Alaska, as well as 
the critical housing and family support facilities to accommodate the 
additional personnel and their families to operate and maintain these 
new assets. Additionally, over the last few years, we have built a new 
hangar to support forward-deployed helicopters in Cold Bay, 20 new 
housing units in Kodiak, as well as new facilities in Kodiak to enable 
our transition from C-130H to C-130J aircraft.
                               conclusion
    These efforts reaffirm our commitment to the region and the 
Nation's need for capabilities, capacities, and infrastructure to 
protect our National security interests in the region. Arctic 
operations must be balanced with competing demands for Coast Guard 
capabilities both at home and abroad. However, the Coast Guard must 
remain flexible and scalable to adapt to the rapidly-evolving 
geopolitical and operational Arctic environments.
    Regardless, the Coast Guard will continue to lead across the 
National and international landscape to build a coalition of like-
minded partners in order to shape the Arctic domain as an area of low 
tension, high attention, and great cooperation while preserving our 
National interests and rights. This leadership and collaboration across 
the National and international spectrum will enable us to reinforce 
positive opportunities and mitigate negative consequences in the Arctic 
region. Failing to increase and focus our Nation's leadership in the 
Arctic will result in other powerful nations taking the lead in a 
region with critical geostrategic value.
    We understand the significant investment required to secure the 
Arctic, and we appreciate and embrace the trust the Nation has placed 
in the Service. Thank you for the opportunity to testify before you 
today and for all you do for the men and women of the Coast Guard. I 
look forward to answering your questions.

    Mr. Correa. Thank you, Mr. Ray. Without objection, your 
full statement will be inserted into the record.
    I now recognize Mr. Michael Murphy, the deputy assistant 
secretary for the Bureau of European and Eurasian Affairs, 
Department of State. Please summarize your comments in 5 
minutes. Thank you. Welcome.

STATEMENT OF MICHAEL J. MURPHY, DEPUTY ASSISTANT SECRETARY FOR 
    EUROPEAN AND EURASIAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Murphy. Mr. Chairman, Ranking Member Lesko, Members of 
the subcommittee, thank you for you inviting me to appear 
before you today to discuss the security situation in the 
Arctic. We are happy to work alongside our Coast Guard 
colleagues to deepen strategic partnerships in the region. Our 
goal is a secure and stable Arctic where U.S. interests are 
safeguarded, the U.S. homeland is protected, and Arctic states 
work cooperatively to address shared challenges.
    For more than 20 years, our principal focus in the Arctic 
has been on promoting cooperation, coordination, and 
interaction among Arctic states and communities on issues such 
as sustainable development and environmental protection. Much 
of this work has occurred through the Arctic Council. As 
Secretary Pompeo has underscored, the Arctic Council's work is 
an important part of our agenda.
    At the same time, we must adjust our Arctic policy to 
today's new strategic reality which is characterized by the 
return of great power competition, a change driven by the 
desire of Russia and the People's Republic of China to 
challenge the United States and the west. The Arctic is not 
immune from these implications. In fact, we should expect the 
rapidly-changing Arctic system to create greater incentives for 
Russia and the PRC to pursue Arctic agendas that clash with our 
interests.
    Russia views the development of the Arctic region as 
critical to its economic future, and Russia has legitimate 
Arctic interests. Within the Arctic Council, Russia has 
cooperated with the United States on issues including oil spill 
response and search and rescue. However, Russia's restrictions 
on the freedom of navigation in the Northern Sea route are 
inconsistent with international law.
    At the same time, Russia's military presence in the Arctic 
is growing. In recent years, Russia has established a new 
Arctic command, created 4 new Arctic brigades, refurbished old 
airfields and other infrastructure in the Arctic, and 
established new military bases along its Arctic coastline. It 
has also made a concerted effort to establish a network of air 
defense and coastal missile systems, early warning radars, 
rescue centers, and a variety of centers in the Arctic.
    The Russian military build-up in the Arctic has 
implications beyond its waters. From a geostrategic 
perspective, the Arctic and the North Atlantic are inextricably 
linked. The Arctic provides Russian ships and submarines with 
access to a critical Naval choke point, the GIUK gap, that 
plays an outsized role in NATO's defense and deterrent 
strategy. Underwater transatlantic cables also run through the 
area. In short, NATO's northern flank must once again command 
the attention of the United States and its allies.
    The PRC presents a different challenge. Its stated interest 
in the Arctic are primarily focused on access to natural 
resources and the opportunities offered by Arctic shipping 
routes. In 2018, the PRC outlined its plans to develop a Polar 
Silk Road as part of its Belt and Road Initiative. It declared 
itself a near-Arctic state and signaled an intention to play a 
role in Arctic governance. This is disconcerting given PRC 
behavior outside the Arctic where it often disregards 
international norms.
    The PRC is seeking greater influence in the Arctic by 
trying to grow its economic, diplomatic, and scientific 
presence. Over the past several years, the PRC has secured 
mining licenses for mineral deposits throughout the region, 
including uranium and other rare earth minerals. In 2019, it 
launched its first home-built icebreaker. The PRC is 
maintaining research stations in Iceland and Norway, and it 
operates 23 Confucius institutes in Arctic countries outside of 
Russia and the United States.
    But as we have seen across the globe, soft power tools have 
a sharp edge when deployed by the PRC. The PRC has weaponized 
state capitalism in an effort to secure control of critical 
dual-use infrastructure. The PRC has demonstrated willingness 
to use coercion, influence operations, and other methods to get 
what it wants. This pattern of behavior, particularly the way 
the PRC has used development of critical infrastructure to 
establish a permanent security presence, must inform our 
approach on the PRC's interests and activities in the Arctic.
    Security challenges exist in the Arctic, but the region is 
also full of opportunity. It is home to fish stocks critical to 
global food supply and deposits of minerals essential to the 
production of advanced technology. As navigation seasons open 
in the Arctic Ocean, new faster, cheaper, circumpolar 
navigation and shipping routes may emerge. The Department of 
State will work to ensure that this region remains open to 
shared economic and scientific interests and our security 
interests are protected.
    More broadly, we want the United States to be a partner of 
choice in the Arctic. We plan to increase our engagement with 
and investment in the region. We are working to establish a 
diplomatic presence in Greenland this summer. We have proposed 
a new $12.1 million funding package to jump-start our 
engagement in Greenland. We are also exploring the possibility 
of increasing the footprint of U.S. Embassy Reykjavik.
    As a department, we continue to support programs designed 
to increase the resilience of Arctic communities to malign 
actors, and we are continuing the good work and strong 
cooperation of the Arctic Council. Its work on non-security 
issues makes a vital contribution to Arctic security.
    Mr. Chairman, Ranking Member Lesko, distinguished Members 
of the subcommittee, thank you again for the opportunity to 
meet with you today and to discuss the challenges and 
opportunities we face in the Arctic.
    I look forward to your continued cooperation and your 
questions.
    [The prepared statement of Mr. Murphy follows:]
                Prepared Statement of Michael J. Murphy
                            February 5, 2020
    Mr. Chairman, Ranking Member Lesko, and Members of the 
subcommittee, thank you for inviting me to appear before you today to 
discuss the security situation in the Arctic. We are happy to work 
alongside our Coast Guard colleagues to deepen strategic partnerships 
and advance U.S. interests in the region. Our goal is a secure and 
stable Arctic where U.S. interests are safeguarded, the U.S. homeland 
is protected, and Arctic states work cooperatively to address shared 
challenges.
    The Department of State has fostered strong diplomatic ties with 
Arctic countries--even before the United States officially became an 
Arctic state in 1867 with the acquisition of Alaska. Our relationships 
with our Nordic partners are some of our most important and enduring in 
Europe, dating back to the earliest days of our Nation's history. 
Denmark, Iceland, Norway, and Canada are NATO Allies whose troops 
deploy alongside our own in war zones like Iraq and Afghanistan, while 
Finland and Sweden are important NATO partners with whom we work 
closely. Our Northern neighbors are essential to Transatlantic security 
both in the Arctic and beyond.
    During World War II, the United States worked with its Arctic 
Allies--particularly Canada and the Kingdom of Denmark--to establish 
bases that were critical to the war effort. During the Cold War, the 
United States and our Allies maintained a robust presence in the High 
North and the Arctic, which reflected the region's importance to our 
collective security in an era of strategic competition. With the fall 
of the Soviet Union, our attention turned to other security challenges, 
and our approach to the Arctic shifted. For more than 20 years, our 
principal focus in the Arctic has been on promoting cooperation, 
coordination, and interaction among Arctic States--with the involvement 
of Arctic indigenous communities and other Arctic inhabitants--on 
issues, such as sustainable development and environmental protection.
    This approach manifested itself in 1996 when the 8 countries with 
territory above the Arctic Circle--Denmark, Finland, Iceland, Norway, 
Sweden, Russia, and the United States--formed the Arctic Council. This 
body serves as the premiere multilateral forum for matters of regional 
governance. The Council operates based on consensus and addresses 
issues ranging from Search and Rescue, to maritime pollution, to the 
health of indigenous communities. Iceland currently serves as the 
Council's chair, but the chairmanship will transition to Russia in May 
2021. The Department of State serves as the lead agency coordinating 
U.S. efforts in the Arctic Council and in multilateral fora focused on 
Arctic governance as well as maritime safety and security.
    As Secretary Pompeo has underscored, the good work that the Arctic 
Council is engaged in must continue; it is an important part of our 
Arctic agenda. The United States has no interest in seeing these 
cooperative activities end. At the same time, we must adjust our Arctic 
policy to today's new strategic reality, which is characterized by the 
return of great power competition--a strategic change driven by the 
desire of Russia and the People's Republic of China to rearrange the 
global security order by challenging the United States and the West. 
The Arctic is not immune from the implications of this change. In fact, 
we should expect the rapidly-changing Arctic system--diminishing sea 
ice coverage, declining snow cover, melting ice sheets, and thawing 
permafrost--to create greater incentives for Russia and the PRC to 
pursue Arctic agendas that clash with United States and Western 
interests. This could put at risk our collective efforts to ensure the 
Arctic remains a region of rules-based governance and low tension.
    Russia is the largest Arctic state in terms of population residing 
above the Arctic Circle and by geographic area, with over 53 percent of 
Arctic Ocean coastline. Russia views the development of its Arctic 
region as critical to the country's economic future, and it has 
legitimate Arctic interests. Within the Arctic Council, Russia has 
cooperated with the United States on a number of issues, including 
education, oil spill response, and search and rescue. However, Russia's 
restrictions on the freedom of the navigation in the Northern Sea Route 
(NSR) are inconsistent with international law as reflected in the 1982 
Law of the Sea Convention. Since 1983, the United States has viewed the 
Convention as reflecting customary international law with regard to 
traditional uses of the ocean and, as such, binding on all States 
including the United States. The Russian government's threat to use 
military force to enforce its unilateral assertions about the NSR only 
further highlights its concerning behavior.
    Russia's military presence in the Arctic is also growing. In recent 
years, Russia has established a new Arctic command, created 4 new 
Arctic brigades, refurbished old airfields and other infrastructure in 
the Arctic, including deep water ports, and established new military 
bases along its Arctic coastline. Russia has also made a concerted 
effort to establish a network of air defense and coastal missile 
systems, early warning radars, rescue centers, and a variety of censors 
in the Arctic. In October 2019, we witnessed the largest Russian 
military exercise in the Arctic since the end of the Cold War. Last 
fall, Vice-Admiral Alexander Moiseyev of the Northern Fleet announced 
Russia's intention to deploy S-400's to create ``an air defense dome 
over the Russian Arctic.'' Russia also maintains the largest icebreaker 
fleet in the world with over 40 existing icebreakers and more in 
development. In fact, on January 15, 2020, Russia announced it will 
invest $2 billion for construction of the world's most powerful nuclear 
icebreaker.
    The Russian military build-up in the Arctic has implications well 
beyond its waters. From a geostrategic perspective, the Arctic and the 
North Atlantic are inextricably linked. The Arctic provides Russian 
ships and submarines with access to a critical naval choke point, the 
Greenland, Iceland, UK Gap (the GIUK Gap), that plays an outsized role 
in NATO's defense and deterrence strategy. Underwater transatlantic 
communication cables--the foundation of our communication system with 
Europe--cross the same waters. In short, NATO's Northern Flank must 
once again command the attention of the United States and its Allies.
    The People's Republic of China (PRC) presents a different 
challenge. Its stated interests in the Arctic are primarily focused on 
access to natural resources and the opportunities offered by the Arctic 
sea routes for shipping. As Admiral Ray highlighted, in 2018, the PRC 
launched its first Arctic Strategy, outlining plans to develop a 
``Polar Silk Road'' as part of the Belt and Road Initiative. In that 
document, the PRC declared itself a ``near-Arctic'' state and signaled 
its intention to play a role in Arctic governance. This is 
disconcerting given the PRC's behavior outside the Arctic where it 
often disregards international norms, as it has in the South China Sea, 
for example. As Secretary Pompeo noted in a May 2019 speech, ``Beijing 
claims to be a `Near-Arctic state,' yet the shortest distance between 
China and the Arctic is 900 miles. There are only Arctic states and 
Non-Arctic states. No third category exists and claiming otherwise 
entitles China to exactly nothing.''
    The PRC is pursuing greater influence in the Arctic by seeking to 
grow its economic, diplomatic, and scientific presence. The Department 
of State fully supports the conclusion of the fiscal year 2020 NDAA 
that ``China is projecting a physical presence in the Arctic through 
upgrading to advanced icebreakers, utilizing the Arctic Ocean more 
regularly through subsidizing arctic shipping, deploying unmanned ice 
stations, and engaging in large and sophisticated data collection 
efforts in countries of the Arctic region, including Iceland, 
Greenland, and Canada.'' Over the past several years, the PRC has 
secured mining licenses for several mineral deposits throughout the 
region, including uranium and other rare-earth minerals. In 2019, the 
PRC launched its first home-built icebreaker and has begun work on a 
new (potentially nuclear powered) icebreaker. The PRC maintains 
research stations in Iceland and Norway (on the island of Svalbard). It 
operates 23 Confucius Institutes in Arctic countries outside of the 
United States and Russia.
    As we have seen across the globe, ``soft power'' tools often have a 
sharp edge when deployed by the PRC. The PRC has weaponized its state 
capitalism in an effort to secure control of critical, dual-use 
infrastructure, such as ports, airports, and telecommunication 
networks. The PRC has demonstrated a willingness to use coercion, 
influence operations, and other methods to get what it wants, and we 
have seen this in the Arctic. The recent experience of the Faroe 
Islands, in which a PRC Ambassador threatened to drop a trade agreement 
if the Faroese government did not sign a 5G contract with Huawei, is 
one example. The PRC's objections to Norway's efforts to protect the 
integrity of the Svalbard Treaty and ensure the island remains a base 
for only legitimate scientific research is another.
    The PRC's patterns of aggressive behavior elsewhere in the world, 
the way the PRC has used Chinese money, Chinese companies, and Chinese 
workers to develop critical infrastructure in other parts of the globe 
to establish a permanent security presence must inform our approach to 
the PRC's interests and activities in the Arctic. The United States is 
not arguing that Chinese economic investment or scientific research in 
the Arctic is unwelcome. We welcome transparent, rules-based engagement 
by the PRC, but the United States and its Arctic Allies and partners 
must examine the PRC's activities much more closely than we have in the 
past. The PRC's behavior over the last decade underscores that we 
cannot and should not assume its good intentions.
    Security challenges exist in the Arctic, but the region is also 
full of opportunity. It is home to fish stocks critical to global food 
supply, oil reserves, and deposits of critical minerals essential to 
the production of advanced technology. As the navigation seasons in the 
Arctic Ocean increase, new, faster, and cheaper circumpolar shipping 
routes between Europe and the United States may emerge. The Department 
of State will work to ensure the region remains open to shared economic 
and scientific, and our security interests are protected.
    Our goal is for the United States to be the partner of choice in 
the Arctic. We hope to accomplish this by increasing our engagement 
with and investment in the region. We are actively working to establish 
a diplomatic presence in Greenland this summer--reopening a U.S. 
Consulate in Nuuk, which closed in 1953. We have proposed a $12.1 
million funding package to jumpstart our engagement with Greenland. We 
are also exploring the possibility of increasing the footprint of U.S. 
Embassy in Reykjavik. As a Department, we support people-to-people 
exchanges to increase English language skills and programs focused on 
sustainable economic development--all to increase the resilience of 
Arctic communities to malign actors. We are continuing the good work 
and strong cooperation through the Arctic Council--a body that has 
directly contributed to the region's long history of peace and 
stability. Its work on non-security issues makes a vital contribution 
to Arctic security.
    Mr. Chairman, Ranking Member Lesko, and distinguished Members of 
this subcommittee, thank you, again, for the opportunity to meet with 
you today to discuss the challenges and opportunities we face in the 
Arctic. I look forward to our continued cooperation as we work to 
increase Arctic security.
    I look forward to your questions.

    Mr. Correa. Mr. Murphy, thank you very much. Without 
objection, your statement will also be inserted into the 
record.
    Ms. Marie Mak, our next witness, is director for 
Contracting & National Security Acquisitions with the GAO. 
Welcome.

STATEMENT OF MARIE A. MAK, DIRECTOR FOR CONTRACTING & NATIONAL 
  SECURITY ACQUISITIONS, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Mak. Thank you. Good morning, Chairman Correa, Ranking 
Member Lesko, and Members of the subcommittee. Thank you for 
inviting me here today to discuss the Coast Guard's role in the 
Arctic and some key challenges it faces in the region.
    As in all U.S. waters, the Coast Guard is responsible for 
maritime safety, security, environmental protection, and 
National defense among other missions in the Arctic. As the ice 
continues to recede and human activity increases, the Coast 
Guard has faced and will continue to face expanding 
responsibilities in the region.
    Although ensuring the safety and security of this dynamic 
region requires a whole-of-Government approach, the Coast 
Guard's capabilities and capacities are also vital to ensure 
National security. It is with the icebreakers that the United 
States can have the assured access to the polar regions as well 
as to safeguard our National interests.
    With that said, the 3 areas that I would like to highlight 
today are first, the capability gaps the Coast Guard identified 
in the region; second, the current Coast Guard icebreaker 
capacity in the polar regions; and third, the key risks facing 
the Coast Guard's acquisition of the new polar security 
cutters.
    Specifically, with respect to capability, we found back in 
2016 that the Coast Guard identified various gaps in the region 
which are still valid today. These include but they are not 
limited to communications, infrastructure, and icebreaking. The 
Coast Guard has worked to mitigate these gaps with its Arctic 
partners. But we found during our review that the Coast Guard 
does not systematically assess how the actions it takes in that 
area will affect those capability gaps. We made a 
recommendation to do so, the Coast Guard agreed, and since then 
has been developing an implementation plan which will provide 
the foundation for assessments of those capability gaps.
    Second. When it comes to polar icebreaking capacity, the 
Coast Guard currently only has 2 operational polar icebreakers, 
1 medium, the Healy, and 1 heavy, the Polar Star. The Healy, 
commissioned in 2000, primarily supports Arctic research, but 
it cannot ensure timely access year round. The Polar Star, 
commissioned in 1976 and the only U.S. heavy icebreaker that 
can break at least 6 feet of ice continuously, is in dire 
condition and is limited to conducting an annual mission to 
resupply the McMurdo Station in Antarctica. The last 2 
missions, the crew have admirably dealt with flooding and fires 
in creative ways to replace broken parts.
    Third. As the Coast Guard continues its effort to address 
the icebreaking capability and capacity gaps, through the 
acquisition of the polar security cutter, it is important to 
recognize that the United States has not built an icebreaker of 
this kind in over 40 years. As we have found time and time 
again in our shipbuilding and major defense acquisition work, 
programs, though well-intentioned, are incentivized and 
pressured to move forward before they have gained sufficient 
knowledge at various points throughout the acquisition process.
    In other words, not having a solid business case. As we 
found in 2018, the polar security cutter program did not start 
off with a sound business case either. However, in response to 
our recommendations, the Coast Guard has signaled a commitment 
to gaining key knowledge before proceeding. For example, the 
program assessed its key technologies and is planning to revise 
the schedule to be more realistic. This program is still early 
in its life cycle. A key milestone and test of the Coast 
Guard's commitment to a sound business case will be the start 
of construction on the lead ship which is slated to begin next 
year.
    In conclusion, the Arctic region has increased in strategic 
importance in recent years. As more nations look to the Arctic 
for both economic and geopolitical advantages, the demand for 
the Coast Guard presence will continue to grow. Both the Coast 
Guard and Congress should remain vigilant in ensuring that the 
program obtains key knowledge on the ship's design before 
authorizing construction on the lead ship.
    Chairman Correa, Ranking Member Lesko, Members of the 
subcommittee, this completes my prepared statement.
    I would be pleased to respond to any questions that you may 
have. Thank you.
    [The prepared statement of Ms. Mak follows:]
                   Prepared Statement of Marie A. Mak
                      Wednesday, February 5, 2020
                             gao highlights
    Highlights of GAO-20-374T, a testimony before the Subcommittee on 
Transportation and Maritime Security, Committee on Homeland Security, 
House of Representatives.
Why GAO Did This Study
    The Coast Guard--a component of the Department of Homeland Security 
(DHS)--is a multi-mission, maritime military service that is 
responsible for maritime safety and National security, among other 
missions. Given the Arctic region's expansive maritime domain, the 
Coast Guard plays a significant role in Arctic policy implementation 
and enforcement. The Coast Guard is also the sole provider and operator 
of the U.S. polar icebreaking fleet--a critical component in ensuring 
year-round access to the Arctic. The Coast Guard is developing the 
first of 3 heavy polar icebreakers--the Polar Security Cutter--it has 
acquired in over 40 years.
    This statement addresses: (1) The Coast Guard's assessment of 
capability gaps in the region, and (2) key risks facing the Polar 
Security Cutter acquisition. This statement is primarily based on GAO's 
June 2016 report examining capability gaps in the Arctic and its 
September 2018 report examining the Coast Guard's polar icebreaker 
acquisition.
What GAO Recommends
    In June 2016, GAO recommended, among other things, that Coast Guard 
develop measures for assessing how its actions have helped to mitigate 
Arctic capability gaps. In September 2018, GAO recommended that the 
Polar Security Cutter program develop a program schedule according to 
best practices. DHS concurred with all of the recommendations, and the 
Coast Guard is in the process of addressing them.
   arctic capabilities.--coast guard is taking steps to address key 
                challenges, but additional work remains
What GAO Found
    In fiscal year 2012, the Coast Guard--the primary Federal maritime 
agency in the Arctic--assessed its capability to perform its missions 
in the region and identified a number of capability gaps. These gaps, 
which still exist today, include communications, infrastructure, 
maritime domain awareness, and icebreaking. The Coast Guard has worked 
to mitigate these gaps with its Arctic partners, such as other Federal 
agencies. For example, during a 2015 annual operation in the Arctic, 
the Coast Guard took steps to enhance maritime domain awareness by 
testing the Department of Defense's communications equipment, extending 
communications capabilities further north than previously possible. 
However, in June 2016, GAO found that the Coast Guard did not 
systematically assess the extent to which its actions helped to 
mitigate these gaps. In response to GAO's recommendation, the Coast 
Guard is currently developing an implementation plan and corresponding 
metrics for its April 2019 Arctic Strategy.
    In September 2018, GAO found that the Coast Guard faced 4 key risks 
when it established the Polar Security Cutter program in March 2018: 
Technology, design, cost, and schedule. For example, the Coast Guard's 
initial planned delivery dates of 2023, 2025, and 2026 for the 3 ships 
were not informed by a realistic assessment of shipbuilding activities. 
The schedule was driven, instead, by the potential gap in icebreaking 
capabilities once the Coast Guard's only operating heavy polar 
icebreaker--the Polar Star--reaches the end of its service life (see 
figure).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    GAO recommended in September 2018 that the program develop a 
realistic schedule and determine schedule risks for the program. In 
response, the Coast Guard is now tracking additional schedule risks for 
the program and is in the process of updating its program schedule. GAO 
will continue to monitor the Coast Guard's progress in addressing this 
recommendation and other recommendations GAO made to address key risks, 
such as design and cost, facing the Polar Security Cutter program.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee: I am pleased to be here today to discuss key challenges 
that the Coast Guard faces in the Arctic, including its capability gaps 
in the region and efforts to recapitalize the Nation's polar icebreaker 
fleet--a key step in addressing these gaps.
    The Coast Guard, a component within the Department of Homeland 
Security (DHS), is the primary Federal maritime agency in the Arctic 
and is currently developing the first heavy polar icebreaker it has 
acquired in over 40 years. As we reported in September 2018, the Coast 
Guard, in collaboration with the Navy, plans to invest up to $9.827 
billion for the acquisition, operation, and maintenance of 3 heavy 
polar icebreakers--also known as the Polar Security Cutters--over their 
entire 30-year life cycle.\1\ In April 2019, the Navy awarded an 
approximately $750 million detail design and construction contract to a 
shipbuilder for the first icebreaker. As the Coast Guard's only 
operating heavy polar icebreaker--the Polar Star--nears the end of its 
service life, the Polar Security Cutters will play a critical role in 
the Coast Guard's ability to ensure year-round access to the Arctic. 
Such access affects U.S. economic, maritime, and National security 
interests in this region.
---------------------------------------------------------------------------
    \1\ GAO, Coast Guard Acquisitions: Polar Icebreaker Program Needs 
to Address Risks Before Committing Resources, GAO-18-600 (Washington, 
DC: Sept. 4, 2018).
---------------------------------------------------------------------------
    My statement today will address: (1) The Coast Guard's role in the 
Arctic, including its assessment of capability gaps in the region, and 
(2) key risks facing the Coast Guard's acquisition of the Polar 
Security Cutters.
    This statement is based primarily on our June 2016 report examining 
capability gaps in the Arctic and our September 2018 report examining 
the Coast Guard's polar icebreaker acquisition.\2\ For the reports 
cited in this statement, among other methodologies, we analyzed Coast 
Guard and Navy guidance, data, and documentation, and interviewed Coast 
Guard and Navy officials. Detailed information on our scope and 
methodology can be found in the reports cited in this statement. Since 
the issuance of these reports, we received and reviewed information 
from the Coast Guard on the actions it has taken in response to our 
recommendations. In addition to our prior work, for this statement we 
reviewed the Coast Guard's 2019 Arctic strategic outlook.\3\
---------------------------------------------------------------------------
    \2\ GAO-18-600 and GAO, Coast Guard: Arctic Strategy Is Underway, 
but Agency Could Better Assess How Its Actions Mitigate Known Arctic 
Capability Gaps, GAO-16-453 (Washington, DC: June 15, 2016).
    \3\ U.S. Coast Guard, United States Coast Guard Arctic Strategic 
Outlook (Washington, DC: April 2019).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
 the coast guard has taken actions to help mitigate arctic capability 
   gaps but has not yet systematically assessed its progress in this 
                                 effort
    The Coast Guard is a multi-mission, maritime military service that 
is responsible for maritime safety and security, environmental 
protection, and National security, among other missions. Given the 
Arctic region's expansive maritime domain, the Coast Guard plays a 
significant role in Arctic policy implementation and enforcement. 
Therefore, as we have reported, as more navigable ocean water has 
emerged in the Arctic and human activity increases, the Coast Guard has 
faced, and will continue to face, expanding responsibilities in the 
region.\4\
---------------------------------------------------------------------------
    \4\ Other DHS components and Federal agencies--such as the 
Departments of Defense (DOD), Interior, and Commerce, and the National 
Science Foundation--as well as interagency groups also have 
responsibilities in the Arctic. We found in June 2015 that DOD's 
strategic guidance on the Arctic establishes a supporting role for DOD 
relative to other Federal agencies, based on a low level of military 
threat expected in the region. See GAO, Arctic Planning: DOD Expects to 
Play a Supporting Role to Other Federal Agencies and Has Efforts Under 
Way to Address Capability Needs and Update Plans, GAO-15-566 
(Washington, DC: June 19, 2015). See also Arctic Planning: Navy Report 
to Congress Aligns with Current Assessments of Arctic Threat Levels and 
Capabilities Required to Execute DOD's Strategy, GAO-19-42 (Washington, 
DC: Nov. 8, 2018).
---------------------------------------------------------------------------
    In June 2016, we found that the Coast Guard assessed its capability 
to perform its missions in the Arctic in fiscal year 2012 and 
identified various capability gaps, including the following:
  <bullet> Communications.--Including the lack of communications 
        architecture. Harsh weather conditions, high latitude 
        disturbances, and geomagnetic storms combine to make 
        communications in the Arctic difficult.
  <bullet> Arctic maritime domain awareness.--Including limited 
        nautical charting, inadequate navigation systems, and 
        insufficient surveillance. Extremely limited operational assets 
        and support infrastructure in the Arctic, as well as the harsh 
        operating environment, make achieving maritime domain awareness 
        a challenge.
  <bullet> Infrastructure.--Including limited aircraft infrastructure 
        on the North Slope in northern Alaska and limited logistical 
        support. Facilities located below the Arctic Circle, and even 
        those within Alaska, provide limited capability to support 
        Arctic missions due to the long transits to the Arctic region. 
        No deepwater ports currently exist on the North Slope or near 
        the Bering Strait that are capable of refueling and re-
        provisioning polar-capable cutters. This forces the Coast 
        Guard's polar-capable cutters to expend significant time 
        transiting long distances to and from replenishment ports. 
        Development of infrastructure to support operations is 
        challenging, in part, due to the high cost of transporting 
        materials to the Arctic and short construction seasons.\5\
---------------------------------------------------------------------------
    \5\ We previously reported on the efforts of the committee on the 
Marine Transportation System to prioritize Arctic infrastructure, and 
on the actions taken by Government entities in support of planning and 
developing U.S. Arctic maritime infrastructure; see GAO, Maritime 
Infrastructure: Key Issues Related to Commercial Activity in the U.S. 
Arctic Over the Next Decade, GAO-14-299 (Washington, DC: Mar. 19, 
2014). We currently have on-going work examining maritime 
infrastructure gaps in the U.S. Arctic and expect to issue a report in 
2020.
---------------------------------------------------------------------------
  <bullet> Training and exercise opportunities.--Including a limited 
        pool of Arctic-trained and experienced Coast Guard personnel, 
        and limited training, exercise, and educational opportunities 
        to enhance Arctic skills among staff. According to Coast Guard 
        officials, few opportunities exist to train in the Arctic, in 
        part, because of limited Coast Guard icebreaking capacity.
  <bullet> Icebreaking.--Including limited icebreaking capacity given 
        the Coast Guard's existing active inventory of 1 medium and 1 
        heavy polar icebreaker, as discussed later in this 
        testimony.\6\
---------------------------------------------------------------------------
    \6\ GAO-16-453.
---------------------------------------------------------------------------
    At the time of our June 2016 review, Coast Guard officials stated 
that the capability gaps were not the sole responsibility of the Coast 
Guard to mitigate and did not completely impair or eliminate their 
ability to perform operations. For example, while communications can be 
a challenge in remote regions, the risk of lost communications can be 
mitigated by using multiple assets working together to mitigate risk if 
lost communications is anticipated. Coast Guard officials also stated 
that given its activity levels at the time, the mobile and seasonal 
nature of its Arctic presence, and its ability to leverage partners' 
resources, the Coast Guard has had sufficient resources to fulfill its 
Arctic responsibilities. However, Coast Guard officials stated they 
would reassess their approach as Arctic activity and resulting mission 
requirements change over time. As we reported in June 2016, if Arctic 
activity continues to increase, as anticipated, the Coast Guard may 
have insufficient resources to meet expanded Arctic requirements.
    In June 2016, we also found that the Coast Guard worked with its 
Arctic partners--such as other Federal agencies--to carry out actions 
to help mitigate Arctic capability gaps. For example, the Coast Guard 
took steps to enhance Arctic maritime domain awareness by testing 
communications equipment belonging to DOD during a 2015 annual 
operation in the Arctic, extending communications capabilities further 
north than previously possible.\7\ However, we found that the Coast 
Guard did not systematically assess how its actions helped to mitigate 
these gaps. Such an assessment--which includes developing measures for 
gauging its progress, when feasible--is critical to the Coast Guard's 
understanding of its progress toward addressing these gaps. By 
systematically assessing and measuring how its actions have helped to 
mitigate capability gaps, the Coast Guard will be better positioned to 
effectively plan its Arctic operations, including its allocation of 
resources and prioritization of activities to target the gaps.
---------------------------------------------------------------------------
    \7\ The annual operation--also known as Operation ``Arctic 
Shield''--is a seasonal surge operation designed to help the Coast 
Guard learn how to operate in this increasingly active area of 
responsibility. Arctic Shield is intended to provide the Coast Guard 
with the opportunity to: (a) Perform Coast Guard missions and 
activities, (b) advance maritime domain awareness, (c) broaden 
partnerships in support of Coast Guard Arctic operations, and (d) 
enhance and improve preparedness, prevention, and response capabilities 
in the Arctic. It is also the primary operation through which the Coast 
Guard carries out activities in the Arctic region and includes the 
deployment of aircraft, cutters, and personnel to the Arctic region.
---------------------------------------------------------------------------
    As a result, we recommended in June 2016 that the Coast Guard: (1) 
Develop measures for assessing how its actions have helped to mitigate 
Arctic capability gaps and (2) design and implement a process to 
systematically assess its progress on this.\8\ DHS concurred with our 
recommendations. As of January 2020, the Coast Guard had not yet taken 
action to implement these 2 recommendations, in part because the Coast 
Guard issued its Arctic strategic outlook in April 2019 and is 
currently updating its corresponding implementation plan for this 
strategy.\9\ The plan is expected to provide the foundation for 
systematically assessing efforts to address Arctic capability gaps. 
Coast Guard officials stated that they are also developing a strategic 
metrics framework for measuring progress in addressing the capability 
gaps. Coast Guard officials did not identify when they plan to complete 
the plan and framework, stating that these are longer-term efforts.
---------------------------------------------------------------------------
    \8\ GAO-16-453.
    \9\ U.S. Coast Guard, United States Coast Guard Arctic Strategic 
Outlook (Washington, DC: April 2019).
---------------------------------------------------------------------------
    The Coast Guard highlighted the Arctic capability gaps in its 2013 
Arctic Strategy and again in its 2019 Arctic strategic outlook.\10\ The 
2019 strategy highlighted the need to elevate the Arctic region's 
prominence as a strategically competitive space due to: (1) The 
resurgence of nation-state competition from the United States' 2 
nearest-peer powers, Russia and China, and (2) reduced ice conditions 
in the Arctic which have led to increased human and economic activity 
in the region.
---------------------------------------------------------------------------
    \10\ U.S. Coast Guard, United States Coast Guard Arctic Strategy 
(Washington, DC: May 2013); and United States Coast Guard Arctic 
Strategic Outlook (Washington, DC: April 2019).
---------------------------------------------------------------------------
    In addition, the 2019 Arctic strategy highlighted 3 overarching 
goals:
  <bullet> enhance capability to operate effectively in a dynamic 
        Arctic domain,
  <bullet> strengthen the rules-based order, and
  <bullet> innovate and adapt to promote resilience and prosperity.
    Further, the 2019 Arctic strategy noted that the Coast Guard is the 
sole provider and operator of the U.S. polar icebreaking fleet--a 
critical component in achieving the Coast Guard's overarching goals in 
the strategy--but currently does not have the capability or capacity to 
ensure access in the Arctic region.\11\ The Coast Guard's polar 
icebreaking fleet comprises 2 operational polar icebreakers--the Polar 
Star and Healy of which only the Healy is currently active and 
operating in the Arctic.\12\ The Healy is a medium icebreaker that 
primarily supports Arctic research, and while it is capable of carrying 
out a wide range of activities, it cannot ensure timely access to some 
Arctic areas in the winter given that it does not have the icebreaking 
capabilities of a heavy polar icebreaker. See figure 1 for photographs 
of the Coast Guard's active icebreakers.
---------------------------------------------------------------------------
    \11\ Under Federal law, the Coast Guard has been responsible for 
carrying out the Nation's polar icebreaking needs since 1965--when it 
assumed primary responsibility for the Nation's polar icebreaking 
fleet. 14 U.S.C.  2 establishes that one of the Coast Guard's required 
primary functions is to maintain icebreaking facilities for use on the 
high seas and on waters subject to U.S. jurisdiction, as well as, 
pursuant to international agreements, to maintain icebreaking 
facilities on waters other than the high seas and on waters not subject 
to U.S. jurisdiction--specifically, the Antarctic region. Title 14 
authorities do not prevent other agencies from owning or operating 
icebreakers or ice-capable vessels. For example, the ice-strengthened 
Research Vessel Sikuliaq, which was commissioned in March 2015 and 
operates in the Arctic Region, is owned by the National Science 
Foundation and operated by the University of Alaska Fairbanks. The 
Sikuliaq, however, is unsuitable for extended operation in the Arctic 
and can only operate in ice up to 2.5-feet thick.
    \12\ The Polar Sea has been inactive since 2010 when it experienced 
a catastrophic engine failure.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    In November 2018, the Coast Guard Assistant Commandant for 
Acquisition testified that the Coast Guard's current polar icebreaking 
fleet provides minimal capacity to carry out current icebreaking 
missions and that the Nation must take swift action to rebuild and 
enhance this critical National capability.\13\ To this end, DHS 
approved the Coast Guard's Polar Security Cutter acquisition program's 
cost, schedule, and performance baselines in February 2018.\14\
---------------------------------------------------------------------------
    \13\ U.S. Coast Guard, Testimony of Rear Admiral Michael J. 
Haycock, Assistant Commandant for Acquisition and Chief Acquisition 
Officer, on Polar Icebreaker Acquisition before the House 
Transportation and Infrastructure Subcommittee on Coast Guard and 
Maritime Transportation (Washington, DC: Nov. 29, 2018).
    \14\ The corresponding acquisition decision memorandum was signed 
in March 2018.
---------------------------------------------------------------------------
 the coast guard has taken steps to address technology, design, cost, 
           and schedule risks for the polar security cutters
    In September 2018, we found that the Coast Guard did not have a 
sound business case when it established the acquisition baselines for 
the Polar Security Cutter program in March 2018 due to risks in 4 key 
areas: Technology, design, cost, and schedule.\15\ Our prior work has 
found that successful acquisition programs start with solid, executable 
business cases before setting program baselines and committing 
resources.\16\ A sound business case requires balance between the 
concept selected to satisfy operator requirements and the resources--
design knowledge, technologies, funding, and time--needed to transform 
the concept into a product, which in this case is a ship with polar 
icebreaking capabilities. Without a sound business case, acquisition 
programs are at risk of breaching the cost, schedule, and performance 
baselines set when the program was initiated--in other words, 
experiencing cost growth, schedule delays, and reduced capabilities.
---------------------------------------------------------------------------
    \15\ GAO-18-600.
    \16\ GAO, Navy Shipbuilding: Past Performance Provides Valuable 
Lessons for Future Investments, GAO-18-238SP (Washington, DC: June 6, 
2018); Weapon System Requirements: Detailed Systems Engineering Prior 
to Product Development Positions Programs for Success, GAO-17-77 
(Washington, DC: Nov. 17, 2016); Best Practices: High Levels of 
Knowledge at Key Points Differentiate Commercial Shipbuilding from Navy 
Shipbuilding, GAO-09-322 (Washington, DC: May 13, 2009); and Defense 
Acquisitions: Realistic Business Cases Needed to Execute Navy 
Shipbuilding Programs, GAO-07-943T (Washington, DC: July 24, 2007).
---------------------------------------------------------------------------
    To address the key risks we identified and help establish a sound 
business case for the Polar Security Cutter program, we made 6 
recommendations to DHS, Coast Guard, and the Navy in our September 2018 
report.\17\ The agencies concurred with all 6 recommendations and have 
taken steps to address some of the risks, as noted below.
---------------------------------------------------------------------------
    \17\ GAO-18-600.
---------------------------------------------------------------------------
  <bullet> Technology.--The Coast Guard planned to use proven 
        technologies for the program, but did not conduct a technology 
        readiness assessment to determine the maturity of key 
        technologies prior to setting baselines.\18\ As a result, the 
        Coast Guard did not have full insight into whether these 
        technologies were mature and was potentially underrepresenting 
        the technical risk of the program. We recommended that the 
        program conduct a technology readiness assessment, which DHS 
        completed in June 2019. DHS determined that 2 of the 3 key 
        technologies were mature and the remaining technology was 
        approaching maturity. The Coast Guard now has plans in place to 
        use testing results to increase the maturity and reduce risks 
        for the remaining technology--the hull form.
---------------------------------------------------------------------------
    \18\ A technology readiness assessment is a systematic, evidence-
based process that evaluates the maturity of critical technologies--
hardware and software technologies critical to the fulfillment of the 
key objectives of an acquisition program. According to our best 
practices, a technology readiness assessment should be conducted prior 
to program initiation. For more information, see GAO Technology 
Readiness Assessment Guide: Best Practices for Evaluating the Readiness 
of Technology for Use in Acquisition Programs and Projects, GAO-20-48G 
(Washington, DC: Jan. 7, 2020).
---------------------------------------------------------------------------
  <bullet> Design.--The Coast Guard set program baselines before 
        conducting a preliminary design review. This review is a 
        systems engineering event intended to verify that the 
        contractor's design meets the requirement of the ship 
        specifications and is producible. By not conducting this review 
        before establishing program baselines, the program is at risk 
        of having an unstable design, thereby increasing the program's 
        cost and schedule risks. We recommended that the program update 
        its baselines prior to authorizing lead ship construction and 
        after completion of the preliminary design review. DHS and the 
        Coast Guard agreed and plan to take these steps by fiscal year 
        2022.
  <bullet> Cost.--The cost estimate that informed the program's $9.8 
        billion cost baseline--which includes life-cycle costs for the 
        acquisition, operations, and maintenance of 3 polar 
        icebreakers--substantially met our best practices for being 
        comprehensive, well-documented, and accurate.\19\ But the 
        estimate only partially met best practices for being credible. 
        The cost estimate did not quantify the range of possible costs 
        over the entire life of the program, such as the period of 
        operations and support. As a result, the cost estimate was not 
        fully reliable and may underestimate the total funding needed 
        for the program. We recommended that the program update its 
        cost estimate to include risk and uncertainty analysis on all 
        phases of the program life cycle, among other things. 
        Subsequently, in December 2019, we found that while the Coast 
        Guard updated the cost estimate in June 2019 to inform the 
        budget process, the estimate did not reflect cost changes 
        resulting from the contract award 2 months prior.\20\ Coast 
        Guard officials acknowledged these cost risks and plan to 
        address them as part of the next update to the program's cost 
        estimate. Coast Guard officials told us that they plan to 
        update the cost estimate by the end of February 2020.
---------------------------------------------------------------------------
    \19\ The GAO Cost Estimating and Assessment Guide was used as 
criteria in this analysis. A cost estimate is considered reliable if 
the overall assessment ratings for each of the 4 characteristics--
comprehensive, accurate, well-documented, and credible--are 
substantially or fully met. For more information, see GAO Cost 
Estimating and Assessment Guide: Best Practices for Developing and 
Managing Capital Program Costs, GAO-09-3SP (Washington, DC: Mar. 2, 
2009).
    \20\ GAO, Homeland Security Acquisitions: Outcomes Have Improved 
but Actions Needed to Enhance Oversight of Schedule Goals, GAO-20-170SP 
(Washington, DC: Dec. 19, 2019).
---------------------------------------------------------------------------
  <bullet> Schedule.--The Coast Guard's initial planned delivery dates 
        of 2023, 2025, and 2026 for the 3 ships were not informed by a 
        realistic assessment of shipbuilding activities. Rather, these 
        dates were primarily driven by the potential gap in icebreaking 
        capabilities once the Coast Guard's only operating heavy polar 
        icebreaker--the Polar Star--reaches the end of its service 
        life. In addition, our analysis of selected lead ships for 
        other Coast Guard and Navy shipbuilding programs found the 
        icebreaker program's estimated construction time of 3 years to 
        be optimistic. An unrealistic schedule puts the Coast Guard at 
        risk of not delivering the icebreakers when promised. As a 
        result, the potential gap in icebreaking capabilities could 
        widen. We recommended that the program develop a realistic 
        schedule, including delivery dates, and determine schedule 
        risks during the construction phase of the program. In 
        response, the Coast Guard is now tracking additional schedule 
        risks for the program and is in the process of updating its 
        program schedule. Further, in December 2019, we found that the 
        contract delivery date for the lead ship, May 2024, is 2 months 
        after the delivery date in the program's schedule baseline.\21\ 
        Coast Guard officials said they plan to address this risk when 
        they update the program's schedule by the end of March 2020.
---------------------------------------------------------------------------
    \21\ GAO-20-170SP.
---------------------------------------------------------------------------
    In summary, the Arctic region has increased in strategic importance 
in recent years, and with the increase comes more responsibility for 
the Coast Guard. The Coast Guard has emphasized that as the Arctic 
continues to open and strategic competition drives more actors to look 
to the Arctic for economic and geopolitical advantages, the demand for 
Coast Guard leadership and presence will continue to grow. As the Coast 
Guard embarks on the acquisition of its new polar icebreakers, it faces 
a number of key acquisition risks. The Coast Guard has begun to take 
steps to address these risks and must remain committed to executing a 
sound business case for the program to mitigate capability gaps in the 
Arctic. To this end, we will continue to monitor the Coast Guard's 
progress in addressing our recommendations.

    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, this concludes my prepared statement. I would be 
pleased to respond to any questions that you may have at this 
time.
    Mr. Correa. Thank you, Ms. Mak, and I thank all the 
witnesses for their testimony. Now I will remind each Member 
that she or she will have 5 minutes to question the panel, and 
I will recognize myself for 5 minutes of questions.
    The first question to all of you. Listening to your 
testimony, I am trying to figure out where we start. It is such 
a huge issue with so many parts. So for each witness, I would 
ask what do you see as the single biggest challenge facing the 
United States, and in particular, the Coast Guard in your role 
in the Arctic?
    Admiral Ray.
    Admiral Ray. Sir, Mr. Chairman, I think as was stated by 
Ms. Mak, we have been a long time in coming, over 40 years, in 
building a polar security cutter or heavy icebreaker. So now 
that we have gotten started, we have got to get it right. In 
the meanwhile, Polar Star, as was stated, our current 
icebreaker, she right now is at McMurdo Station in the South 
Pole as we sit here today, and she successfully broke it out. 
By break it out, I mean they opened up the channel where they 
could get the resupply vessels in, and so she is doing her job.
    We have got a plan to extend her service life. We will 
start work on that so when she comes home in our summertime, 
their wintertime down at the South Pole, we will spend extra 
time in the yard, extra funds to extend her service life. So we 
have got to keep her in service until this new polar security 
cutter that Ms. Mak was talking about comes out of the yards 
which is projected in 2024.
    So that overlap time between now and then is critical time. 
We have got to maintain this aging ship and get the new ship 
going while being mindful of all the challenges of the first 
ship of a class coming off the way.
    Mr. Correa. Thank you.
    Mr. Murphy.
    Mr. Murphy. I would just echo what the Admiral said about 
presence equaling influence and leadership. Certainly the State 
Department shares the view that a greater Coast Guard presence 
in the Arctic would be a positive thing in terms of shaping the 
strategic environment in the United States' favor.
    With regards to the State Department itself, there is a 
change going on in the Bureau of European Affairs where seven 
of the Arctic states or 6 of the 7 Arctic states in the Arctic 
Council are located, we have have a new strategic environment 
with regard to the challenges we are seeing from China and 
Russia.
    In the past before the acknowledgment of the great power 
competition paradigm which we now find ourselves in, we saw 
Europe primarily as a platform for partnerships outside the 
region. We are now in a theater of operations ourselves much 
the same way that other parts of world have been, you know, 
prior to this.
    So the United States State Department, the Bureau of 
European Affairs, needs to make that transition from a platform 
for operations outside the continent, whether in the Arctic or 
elsewhere, to what I will call a war-fighting command in much 
the same way that UCOMM is doing in response to the challenges 
we are seeing from Russia and China. That is one of the reasons 
we are working on presence in the Arctic region itself.
    Mr. Correa. Ms. Mak.
    Ms. Mak. Both the Department of Defense and the Coast Guard 
Arctic strategies have highlighted some of the same capability 
gaps that I mentioned earlier like communications, maritime 
domain awareness, infrastructure, icebreaking, and training 
opportunities.
    So in order to really figure out what the top priorities 
for the United States should be, there needs to be a whole-of-
Government approach to determine which priorities in these gaps 
are the most urgent and how to proactively address all these 
gaps, which one is most important to address first. But it is 
important that--we tend to be more reactive. It is really 
important as a Government that we be proactive. By the time the 
threats are imminent in the region, it will be too late.
    Mr. Correa. So we are kind-of chasing the issues as opposed 
to planning long-term anticipation of developments, yes?
    Ms. Mak. Yes. Correct.
    Mr. Correa. Thank you very much.
    I am going to yield the remainder of my time and ask Mrs. 
Lesko to engage her 5 minutes of questions.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first question is to both Admiral Ray and Mr. Murphy, 
and it has just kind-of a basic question. There are so many 
needs throughout the world and to protect us. Do you think this 
concern about the Arctic and competition in the Arctic, and 
making that sure we have a presence in the Arctic has risen 
high enough to the level to get the attention of top people as 
a priority?
    Mr. Ray. Well, I think it is certainly--it has not been but 
recently that we received the attention of subcommittees such 
as this one and the Congress and the people who have the 
opportunity to provide the resources to do what we need to do 
to have that presence that Mr. Murphy is talking about.
    I think likewise within the administration, we have got 
great support for the polar security cutter program, incredible 
support, and so right now, I think this has reached the highest 
levels of Government.
    In the Coast Guard, we have been talking about this for, I 
don't know, a decade, at least, and it was seen before as kind-
of an Alaska problem. I don't see that as the situation any 
more. I see this as everybody understands it is a National 
priority, and both from the Congress and from the 
administration, we have got the support we need.
    It is just we have got to--there is additional things 
besides polar security cutters that we need to get after. As 
Ms. Mak talked about, there is communication and other 
capabilities, and we can discuss those as you see, but I think 
generally speaking, this has gotten the attention now that we 
need it to have.
    Mr. Murphy. I would agree. When I started my job about 2 
years ago, security in the Arctic really wasn't on my agenda at 
all. It was a traditional Nordic Baltic European security 
portfolio. That change has come about directly as a result of 
the secretary putting it on our agenda and making clear that we 
in the Bureau of European Affairs need to focus on the Arctic 
security piece of what is happening, you know, not just the 
Arctic Council-type issues that we focused on in the past, 
important as though they are.
    The work that we are doing now to put a permanent presence 
in Greenland, a new consulate there, and we are looking at, as 
I said in my remarks, expanding our presence in U.S. Embassy 
Reykjavik. I am working directly with the counselor who has 
been directed by the Secretary of State to make sure this 
happens.
    So I have seen a big change in both support at the top and 
in the energy behind these issues in my 18 months in the State 
Department in my current job.
    Mrs. Lesko. That is good to hear. It is good to hear.
    Another question for Admiral Ray is, Ms. Mak talked about 
in her testimony how, you know, the Coast Guard had problems 
tracking and measuring progress in the Arctic region, and she 
said that the Coast Guard has agreed to the recommendations.
    So can you expand upon that? Like, what has the Coast Guard 
been doing not only on that, but she also said like a business 
plan to purchase and acquire the Coast Guard cutters?
    Mr. Ray. Yes, ma'am. Well, I think there has been a 
combination of events that have allowed us to put forth the 
persuasive argument that the Nation--this is a National 
problem, that we need to operate there and that we are not--the 
resources that we had appropriated to this mission were 
insufficient for what the Nation needed to do.
    So I have worked with Ms. Mak over the last few years. What 
they do is kind of help us look at our plans moving forward, 
whether it is the acquisition of a National security cutter, 
and that is a tough thing to do. It is a specialized 
construction.
    So what we did, largely according to their advice, A, we 
partnered with the Navy in order to have an integrated program 
office. So the specialized ship work construction is really not 
that different than building a submarine which is a specialized 
construction. So we had Navy leadership that has experience in 
that working with us throughout the way.
    She also talked about our, you know, not really 
understanding the state-of-the-art with regards to technology. 
So we did industry studies which we paid for industry to 
analyze this problem before we put out the request for 
proposal, and that really made a big difference. It really 
narrowed us down with regard to technology that we would use 
different than what Polar Star has now with regards to what is 
available on the market, kind-of the state of the market. So I 
think we have been specifically following their guidance on 
this, and then the whole process of the acquisition. That 
requires attention.
    With regards to the other capabilities, Ms. Mak's exactly 
right. I mean, it is difficult to communicate. When you get 
north of the North Slope up in Alaska or north of that same 
latitude in Greenland or anywhere, it is difficult. It is 
difficult to navigate. It is difficult to do everything that 
you do down here. That is why this presence and being there in 
the interim--you don't just show up in the Arctic and decide to 
operate there. You need to be working on it every day. We have 
been about that through an operation called Arctic Shield that 
we have been doing for the last several years.
    So I think we have been not 100 percent with what GAO would 
have us to do, but we have been working down that path.
    Mrs. Lesko. Well, that is wonderful, and I want to thank 
all of you for working on this important issue, and I agree 
with Chairman Correa. We need to continue to support our 
efforts up there, and I yield back my time. Thank you.
    Mr. Correa. Thank you, Mrs. Lesko.
    Now I recognize Ms. Barragan for 5 minutes of questions.
    Ms. Barragan. Thank you. I want to thank the panel for 
being here today. Thank you, Admiral, for your work and that of 
the Coast Guard. I represent the Port of Los Angeles, and you 
are very--the work that you all do there, the men and the 
women, is remarkable, so I want to thank the Coast Guard for 
its work.
    We were handed out this little chart here that shows the 
icebreakers of the world, and it is pretty remarkable to see 
Russia at 53 plus 6 under construction and 12 planned and the 
United States only at 5. It is more than 10 times as many. That 
is quite remarkable. I am hoping we can talk a little bit about 
what that means.
    But before I get to that, Admiral, does the Coast Guard 
believe in climate change? Do they take a position on it?
    Mr. Ray. Ma'am, what we have stated pretty consistently 
over the years is we remain pretty agnostic about it. What we 
know is there is water where there used to be ice, and we have 
a job to do there. That is how we go about that.
    Ms. Barragan. So the Coast Guard's 2013 Arctic strategy 
attributed decreases in sea ice coverage explicitly to climate 
change. However, the 2019 Arctic strategy avoided such an 
attribution and merely acknowledged a changing climate. As the 
Coast Guard plans for its future needs over the coming years 
and decades, it must use the best scientific estimates for what 
the climate and sea levels will look like.
    How does the Coast Guard incorporate the scientific models 
and projections into its planning activities? Are the Coast 
Guard's projections for future needs driven by scientific 
consensus or politics?
    Mr. Ray. Well, we base it on science, and thanks to the 
support from this committee and others. In fact, what we have 
seen, as I know you're aware, the hurricane supplemental money 
we have received from the 3 years of storms we had down south, 
along the gulf and in Puerto Rico and the Virgin Islands.
    So what we are doing is we are building our stations back 
with an acknowledgment that in the future, the ocean conditions 
and the coastal conditions are going to be different than they 
are now. So we have got to build back in a more resilient type 
infrastructure. So we are, I think, clearly acknowledging that 
it is a changing environment, and we need to be able to operate 
in it, and we don't have the luxury of not being close to the 
coast because that is where our business is. So we are building 
back more resilient facilities.
    Ms. Barragan. So you mentioned that the ice is melting. Is 
there any other environmental changes that occurred in the 
Arctic? What type of changes do you project for the future in 
the Arctic?
    Mr. Ray. Yes, ma'am. There are multiple things that are 
changing. One of the things that I talked to the Chairman about 
the other day is the fish stocks are--we have got indications 
from working with NOAA that fish stocks are migrating further 
north as there is a slight warming in the Bering Sea. The fish 
stocks are moving north.
    So the Bering Sea is a really important fishery to the 
Nation. Probably better than 50 percent of the Nation's, you 
know, seafood products that we consume come from the Bering 
Sea. So those fish stocks migrating north that is a----
    Mr. Correa. Can you repeat that again, that statement you 
just mentioned?
    Mr. Ray. Yes, sir. About 52 percent of the seafood products 
that American consumes, you know, sells that we harvest from 
the ocean come from the Bering Sea which is just south of the 
Arctic Circle, the biggest part of it is. I have been up there, 
you know, quite a bit, operated up there, and that is a well-
managed fishery.
    There is a lot of cooperation where there is a rarely-
defined border between us and the Russians, so it is a well-
managed fishery. Then as those fish stocks migrate north, those 
that would take advantage of a less well-defined structure, 
they will do that, and so we have to be mindful of that. So 
fish stock is moving north.
    There are changes, if you talk to the indigenous people 
which I have many times, there are changes to the migration 
patterns of marine mammals that they depend on for subsistence 
living. They go further offshore to look for whales. I could go 
on and on, but suffice it to say there is changes.
    Then equally with regards to the environment, there are 
changes to the permafrost that they depend on, they built on, 
and that has been frozen for eons. As that has, you know, it 
has changed, then you have got to watch some of the 
infrastructure that they have got in those native villages out 
there.
    So that is the summary of the changes I am aware of, ma'am.
    Ms. Barragan. Great. Well, thank you. I am definitely 
concerned with climate change and what it is doing to the 
region and the impact it is going to have on National security.
    With the time remaining left, you know, if you take a look 
at the chart, as I mentioned, there is a pretty remarkable 
difference between the icebreakers that Russia has and China 
has. Should the United States be concerned that it is lagging 
so far behind Russia and China?
    Maybe one of the other panelists want to start.
    Mr. Murphy. I won't speak to Coast Guard-specific points, 
but yes is the short answer to the question. One of the reasons 
the State Department is working to enhance its presence in the 
region and diplomatic engagement is precisely because we see 
our adversaries doing the same.
    We have to move beyond a point where we are focused solely 
on the one element of Arctic policy that we have been focused 
on over the past 20 years, as important as it is, the work of 
the Arctic Council, to ensuring we inject respect for and 
concern about Arctic security into what we do every day.
    That is precisely what the Secretary has asked us to do, 
and that is what lay behind, for example, our decision to open 
a new consulate in Greenland.
    Ms. Barragan. Admiral, do you want to chime in before I 
yield back?
    Mr. Ray. Well, I think what we propose in the Coast Guard 
is 6-3-1, so I think trying to catch the 53 is not something 
that we think that is aspirational for us.
    We talked about 6 icebreakers total we need to do the job. 
We need to do both poles. Three of them need to be heavy 
icebreakers, and we need the first one right now as we have 
talked about. We will reassess that as we move forward, but the 
critical thing is to get that first one off the ways at the 
shipyard.
    Mr. Correa. Thank you, Ms. Barragan.
    Now I recognize Mr. Katko for 5 minutes of questions, sir.
    Mr. Katko. Thank you, Mr. Chairman.
    First of all, I never want to miss an opportunity to tip my 
hat to the Coast Guard. I have worked with you for 20 years 
when I was in Puerto Rico and back in upstate New York and 
around the world, and you do a remarkable job, and you have to 
wear many hats. From a law enforcement and organized crime 
standpoint, you do an awesome job. I just want to thank you to 
you and all the men and women who work under you for the great 
job that they do, so thank you for that.
    I am absolutely convinced that we obviously need to plus up 
the forces up and the icebreakers and the ships. I agree with 
you, Admiral. We can't get to where Russia is, nor do I think 
we need to, to be effective. I think my colleagues have pointed 
that out pretty well as well. But I want to take a step back 
and understand from a bigger picture standpoint, maybe we can 
start with Mr. Murphy on this issue, and that is I want to 
understand the interplay with Russia better, and China, and the 
United States as I understand it, Russia does have somewhat of 
a decent working relationship to some extent with the United 
States on this issue. China seems to be trying to elbow their 
way in.
    So what do you see are the issues going forward if you can 
summarize them for us the best you can and the interplay 
between all 3? What are the real threats?
    Mr. Murphy. Sure. You are right. Russia does have a good 
working relationship with the United States and the other 
Arctic States within the Arctic Council, and we have done some 
great work on search and rescue, good scientific collaboration, 
responses to oil spills, things of that nature. That has been 
positive, and we want to make sure we don't lose that. There is 
no reason to want to lose that.
    The Russian challenge is, of course, the military build-up 
that is not just occurring, of course, in the Arctic. This is 
all related. It is occurring in the east and sort of the you 
know, the Russian behavior in Europe more broadly in terms of, 
you know, violating international rules and norms and the 
actions it has taken in the Donbass and Crimea and Georgia.
    I mean, we have seen that Russia can flip a switch and go 
from--you know, to a military--take a military approach to 
pursuing its interests if it wishes to, and we need to respond 
as allies and in the United States within, you know, NATO to 
the challenges that the Russians are now posing to us in the 
Arctic and North Atlantic militarily.
    With regards to China, it is a bit different, of course. 
They have not established a military presence in the Arctic. 
But they are very aggressively pursuing economic and other 
interests in the Arctic in ways that are disconcerning given 
some of the claims that they are making about where they want 
to be involved in Arctic governance as a near Arctic state.
    Mr. Katko. A near-Arctic state. Yes, yes.
    Mr. Murphy. Which is malarkey. There is no such thing as a 
near-Arctic state. There are Arctic states and non-Arctic 
states. China is the latter, not the former. The Arctic Council 
works fine, thank you very much, without China.
    But we have to be cognizant of the fact that what looks 
relatively benign on the surface, an economic investment, here 
a piece of scientific cooperation there, may have long-term 
military purposes. We know from reading some of the journals, 
the scholarly journals, the Chinese have been quite clear about 
their intentions there, and we need to begin countering that 
influence now. We don't want to wait and wake up and find some 
day that we have lost control of a port somewhere or an 
airfield somewhere that we need for our own security and 
defense or that we need to protect and defend our allies. Those 
are the challenges.
    Mr. Katko. So--thank you. That is a great summary. It is 
very helpful. Just a couple follow-up questions and one 
observation and one question.
    The observation is China has got the money to do the build-
up. I question whether Russia has the ability to sustain itself 
given the fact that oil is remaining at a low price on the 
international market, and their economy is not as strong as it 
once was and maybe never was. Just how much money can they 
dedicate to this constant build-up that they are contemplating?
    Mr. Murphy. The challenge is one of near-term and long-
term.
    Mr. Katko. Right.
    Mr. Murphy. They are really short-handed. As we have seen 
from Russian behavior not just in Europe or in the Arctic but 
in the Middle East and in South America and in Africa, they 
have the resources to be very aggressive and to challenge our 
interests where they want to when they want to despite the 
challenges you allude to facing their economy and their long-
term prognosis of their economy.
    So we need to--we can't wait and hope that history is going 
to bend into a particular direction. We have to help shape our 
forces in our own favor, and that is one of the reasons I think 
we still need to continue to pay attention to Russia and push 
back where it is necessary.
    Mr. Katko. This is very helpful. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Correa. Thank you very much, Mr. Katko.
    I recognize Mr. Bishop for 5 minutes of questions.
    Mr. Bishop. Thank you, Mr. Chairman.
    You know, being very new in Congress and listening to this, 
even if you didn't have anything about the climate change and 
new routes in the Arctic and increased global great power 
competition as you put it, Mr. Murphy, it would be easy for me 
to see that the need for a heavy icebreaker, if you have got 
one and it is flooding and burning as it is exercising its 
mission, it has got to be replaced. I get that. That seems to 
be largely what we are talking about, at least in the immediate 
future. I understand there is a plan that goes farther out.
    I understand, Mr. Murphy, that you are talking about 
responding to the challenges by having a new consulate in 
Greenland. But when you describe the phenomenon and 
characterize it as a great power competition, the same sort of 
phenomenon we are seeing in the South China Sea and so forth, 
those responses sound to me, just as a matter of common-sense, 
a little inadequate.
    Now, that doesn't mean that I believe that I think we have 
the means to project American power in a much bigger way 
because that consumes a tremendous amount of resources. But I 
do wonder about that. Could you, Mr. Murphy, maybe first and 
then, Admiral Ray, if you would address that apparent mismatch 
between what is being suggested as the response and the nature 
of the dynamic that you are describing?
    Mr. Murphy. I think, you know, we have to look at this as 
something that doesn't happen in a week or a month. It takes 
time. We went through pivot points in our strategic in the past 
and strategy when in 1945, 1989, and, you know, 2001, and it 
took time to get from where we wanted to be--from where we were 
to where we wanted to be. I mean, Germany didn't join NATO 
until 1953. It didn't come out of whole cloth in 1945 at the 
end of the war.
    I think what you are seeing is the U.S. Government and the 
Legislative and the Executive branch making adjustments to this 
new strategic reality. So I would argue that the consulate in 
Greenland is an example of that, but it is not all that we are 
doing. The Bureau of Economic and Business Affairs in my 
department and the Bureau of Energy Affairs are vigorously 
involved in dealing with the threats posed by 5G networks 
coming from China, for example. We have been very forceful in 
pushing back against unfair Chinese trade practices, for 
example.
    It is not just--you know, when you talk about it in the 
context of the Arctic, it is in part about presence now because 
we haven't been as present as we need to be. So it is just one 
piece of the puzzle. I wouldn't characterize it as the whole.
    Mr. Bishop. That is helpful. Admiral Ray maybe, I think 
what maybe we are seeing here is a glimpse of a piece given 
this committee's jurisdiction of the response to that new 
dynamic. Can you characterize how it is that, you know, for the 
immediate near future, 1 new heavy cutter in relationship, you 
know, to Russia's assets that have been described, how that 
materially changes the way America has a presence in the 
region.
    Mr. Ray. Yes, sir. It is really pretty--what our strategy 
and the number that sticks that I talked about earlier, the 
first one being important, is it allows us to be present there. 
So we have got--the Department of Defense has great assets, and 
they protect us under the ocean and in the skies, the greatest 
in the world, but you have got to have an on-surface presence 
to contest these folks.
    We can talk about in a different setting, you know, exactly 
what has happened in the past where they just kind-of push the 
envelope, push the envelope. If you are not there to stand up 
to them and say, ``Hey, what are you doing?'', that becomes a 
challenge.
    So really, what happens when you build a heavy icebreaker, 
that allows you to be up there anywhere you want to be in the 
Arctic pretty much year round. There are certain times that 
would be a little too bad, but you can be there any time. Do we 
need to be there this winter? Probably not. But if you look at 
the way it is trending, we need to have the capability to 
operate up there all year round. That is what these will do for 
us.
    Mr. Bishop. Thank you, Admiral.
    Mr. Murphy, one other question, I think. Can you 
characterize, maybe, what does the interagency partnership look 
like across the Government to respond to the Arctic, the 
situation in the Arctic, and which agency spearheads it? Is it 
State?
    Mr. Murphy. It depends on the issue, of course, but in 
general, the Department of State leads in preparing and 
managing the relationships that occur within the Arctic Council 
which brings together a whole slew of agencies, including the 
Coast Guard, with whom we partner greatly and coordinate 
greatly in the work that they are doing in the Arctic Council 
working groups on things like search-and-rescue and oil spills 
and whatnot.
    We work very closely with the National Science Foundation 
and NOAA which are also involved in the Arctic Council work. My 
team, in my office, work very closely with the Pentagon, the 
civilian side and the military side, to deal with the 
challenges in the Arctic as they look through the lens of NATO 
which is one of my areas of responsibility.
    The interagency has been pulled together several times, 
many times, by the National Security Council to discuss how we 
respond to and what we do in the context of the new challenge 
in terms of Arctic security, so it is myriad and multi-faceted.
    What is interesting, and I say this as someone who has been 
learning about this myself over the last 8, 9 months, is there 
are a lot of strands here. But what I am consistently impressed 
with is the dedication and the commitment of the people with 
whom I work right across the interagency process to getting 
this right for the United States which is what I think they get 
up every morning and try to do.
    Mr. Bishop. No doubt. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Correa. Thank you Mr. Bishop. I recognize Mr. Van Drew 
for 5 minutes of questions.
    Mr. Van Drew. Thank you, Chairman. I want to thank all of 
you for the work that you do. Particularly, I have had a 
relationship with the Coast Guard as well and wanted to echo 
Congressman Katko's words. As you know, we have the training 
center for the entire United States in Cape May in my district, 
actually, only a few minutes from my house. So we really do 
appreciate the work that you do.
    I am going to ask an elemental question, a basic question. 
You know, they say there is no such thing as a stupid question, 
so here we go. How is this governed? In other words, how does 
this operate? Like, what gives China the right to just be up 
there or Russia or us? How does this whole system work?
    Mr. Murphy, I guess I would start with you on that.
    Mr. Murphy. That is fair enough. Well, obviously within the 
context of the Arctic Council which is the principal form for 
the Arctic states to----
    Mr. Van Drew. Which is made up of those states----
    Mr. Murphy. The Arctic states. That is exactly right. There 
are 8 of them. Canada, the United States, of course Denmark, 
Norway, Iceland, Finland, and Sweden, and Russia. That, by 
design, the remit of the council is not on security issues. It 
is focused on things like environmental protection, search and 
rescue, scientific research. It was deliberately designed that 
way when it was inaugurated in 1996.
    They have been engaged in partnerships across the board on 
those types of issues, and they sort-of set the rules, if I can 
put it that way. The lawyers probably will probably tell me 
that is too strong a word, but they more or less set the rules 
for Arctic governance. Now, they don't have the ability to 
enforce those rules. It is up to the individual member states 
of Arctic Council themselves which has happened. That 
partnership occurs also with indigenous peoples and indigenous 
groups across the Arctic states and non-indigenous Arctic 
communities that are living in the Arctic.
    Mr. Van Drew. So it is a little complicated.
    Mr. Murphy. It is a little complicated, but it works. The 
most important thing to remember is it works. For 20 years, it 
has produced results.
    Mr. Van Drew. So let me ask this question, exactly how it 
happens. So China, of late, has been more involved, correct?
    Mr. Murphy. They have been more assertive in pushing their 
presence into the Arctic.
    Mr. Van Drew. To whom did they have to go to get permission 
to do that?
    Mr. Murphy. They don't have to ask, for example, to seek 
investments in critical infrastructure in Finland or Norway 
or----
    Mr. Van Drew. But the group that is there, that council 
agreed that they could be there.
    Mr. Murphy. Every nation has the right to seek investments 
in foreign countries. What we need to do as the governments of 
the Arctic states ourselves is make sure that we are looking at 
those and asking ourselves are we screening them? Should we 
allow control of a port or an airport to fall to the Chinese? 
Should we allow them to obtain controlling stakes in sensitive 
minerals and mining areas? That is on us.
    One of the things the Department of State has been doing 
with others in the interagency is pressing not just these 
states but countries world-wide to put in place exactly these 
kinds of investment screening mechanisms, for example. Do we 
want them to control information technology, and you know, 5G 
networks where they might use for nefarious purposes, and we 
are pressing in those areas.
    Mr. Van Drew. Each person has 1 vote?
    Mr. Murphy. In the council, yes, and it is a consensus-
based organization. So we have to distinguish between the 
individual projects the member states agree to take up in the 
working groups that they are engaged in and then the broader 
set of challenges, you know. China can sail in international 
waters, and I am really going to defer to the Coast Guard on 
this, just as we can.
    What we wanted to do is to respect the rules-based order 
and be transparent in the way that it goes about, you know, 
asserting its--being present or engaging in economic----
    Mr. Van Drew. A little bit more than most modern 
governments interactions in cities, it seems a little bit more 
of a little--I am exaggerating a little bit here, but Wild West 
type of atmosphere compared to what you see in most of the 
world or at least a good part of the world. It seems like an 
open territory where people can kind of go in and, to some 
degree, do what they want.
    Mr. Murphy. I think because the Arctic is changing, there 
are opportunities opening up that weren't there before in terms 
of shipping and other places that create these potential 
challenges you are alluding to, yes.
    Mr. Van Drew. In the future because of that, and then I 
will just wrap up, but two things. No. 1. I agree with you, 
absolutely it is unbelievable. We need these Coast Guard 
cutters for sure, you know. We need to make sure that we have 
this equipment.
    Second, I think it is important probably as we go forward 
that the scrutiny might be greater because of what is going on 
and the changes that are occurring on our earth.
    Third, I do think that there are changes, climate changes 
that are occurring, but regardless of the climate changes, we 
have a responsibility as far as the resources that are up 
there, and we have a responsibility as far as safety and 
governance to ensure that we have our rightful role of having 
some control over what is going on in the future because, you 
know, the one thing we can talk about climate change all we 
want. Whatever you believe and whatever is going to happen, it 
is not going to be cured like that.
    So this process, to some degree, is going to go on, and we 
have to be able to control it. I think that is what you are 
trying to say, and I think you are absolutely right.
    Mr. Murphy. I think a secure and stable Arctic where U.S. 
interests are safeguarded, where our homeland is protected, and 
where Arctic states work cooperatively on some of these 
challenges is exactly what we are aiming for. It is 
irrespective of any other sort-of issue going on, you know.
    Mr. Van Drew. Last question on this. What is the time 
frame--I know Russia has been involved a long time, but for 
China. What is the time frame where they have really gotten 
active there?
    Mr. Murphy. It goes back----
    Mr. Van Drew. Just a ballpark.
    Mr. Murphy [continuing]. Several years, 3 or 4 years, at 
least.
    Mr. Van Drew. So yes. This is a relatively new activity on 
their part.
    Mr. Murphy. You know, I think the administration's National 
security strategy does an outstanding job highlighting this 
geostrategic shift that has occurred in the world. I think it 
was happening before 2014 with regards to Russia, for example, 
before a 2016 attempt by the Chinese to make a purchase in 
Greenland of what was a formal Naval base of the United States. 
But it crystallized everyone's thinking. It is a new frame.
    I see, you know, strong bipartisan support in my job from 
this body but also outside in think tanks and the NGO community 
moving forward to put in place the tools that we need to 
succeed in that frame and protect our interest and our security 
and ensure the prosperity for the American people as we did for 
the last 75 years.
    Mr. Van Drew. Absolutely. I think we have to keep an eye on 
them. Thank you.
    Mr. Correa. Thank you Mr. Van Drew.
    I would like to move into a second round of questions, if 
we can, and I wanted to start out by asking, Admiral Ray 
without getting into political issues of global warming, I 
would ask specifically. I presume the Coast Guard has a plan, 
has some projections in terms of what assets will be needed in 
that area of the world based on less ice the next 5, 10, 15, 
20, 50 years. Am I correct in that assessment?
    Mr. Ray. Yes, sir. We have talked a lot about the polar 
security cutters, but there are other assets that we will need 
to operate up there as well.
    Mr. Correa. So coming back to that chart Ms. Barragan put 
up and that shows that we are way behind when it comes to 
icebreakers when you compare us to the Russians and some of the 
others, but there is other ways to multiply, so to speak, our 
assets to make sure that we have other non-icebreaker 
capabilities to assure that we have some kind of a semblance of 
control and enforcing rule of law in that area?
    Mr. Ray. Yes, sir. As was stated previously, the ability to 
communicate up there requires use of new technology. We did an 
experiment--not an experiment. We did a test starting 2 years 
ago with small satellites that were launched with SpaceX to a 
lower polar orbit to allow us to communicate, and this was, you 
know, pretty--it was funded by DHSST, and it was--we learned a 
lot during that. It wasn't intended to become operational. We 
learned a lot. So that is an example of things that we need to 
do to get into that line of business.
    There are things we need to do with our aviation assets 
that we need to operate up there. I think the most important 
thing that we kind-of believe is the secret to the Coast 
Guard's ability to be agile is you can't cover the whole thing 
from fixed bases is to have these movable resources that you 
can----
    Because in 2015, it was all about Shell drilling for oil, 
and we were all stationed over in what I will call northwest of 
Utqiagvik. More recently, the ecotourist traffic is further to 
the east, you know. When I say further east, several hundred 
miles. So we have got to be agile and able to move around.
    Mr. Correa. Mr. Murphy, you made a statement that the 
administration now understands the importance strategically of 
this area to our Nation. But I would say--just from a gut 
reaction here, I would say that we as a Nation do not 
appreciate the importance of this region to our country. Unless 
you are on the front page of the newspapers every day, unless 
you begin--you know, really push this in front of the public, 
our policy makers are probably not going to look at this.
    This committee, this is the second hearing we have had on 
this issue, and we are trying to push this information out to 
the rest of our colleagues. It is important because long-term, 
pennies invested today will save us a lot of headaches and a 
lot of dollars in the future.
    We talked earlier, Admiral, about the fish stock and the 
Bering Sea, 52 percent of our fish and a huge percentage of our 
protein coming from that area. You talked about the fish 
migrating north, so my question is are they migrating north, or 
are they expanding north?
    Mr. Ray. Probably the--I think it is more toward--I will 
call it relocating, at least from the signs we have seen thus 
far. So the fish stocks are----
    Mr. Correa. That would concern me a little bit because we 
are talking about food stock. Twenty, 30 years' worth of food 
will be a strategic weapon in the world. We want to make sure 
that the United States has its food supply secure.
    Finally, I would just say planning for the future, what can 
we do as a committee to make sure that we inform our public, 
our constituents, our colleagues of your important--and not 
only in the region but of the Coast Guard. I just got back from 
New Zealand. Those folks were talking raving reviews about the 
Coast Guard and how they work on these vast swaths of water to 
protect, to rescue folks.
    We look at North Korea, how you are involved in the 
blockade, OK, of North Korea to make sure that we are enforcing 
international law. You are working everywhere; South America, 
Central America, the Caribbean. Yet your resources are very 
limited. How can we get that message out to our colleagues that 
we need to take care that you do have the resources and the 
assets to do your job?
    Mr. Ray. Well, thank you for your observations, Mr. 
Chairman. I think, you know, as we look over the support that 
we have received, the resources recently, the thing that we 
come back to is talking about our readiness. Our readiness 
allows us to take resources from New England and surge them 
down to the Gulf Coast to respond to a hurricane. It is what 
allows us to do this Arctic work.
    So when we talk about readiness, that is the kind-of the 
day-to-day operational and maintenance funding that the 
Congress provides us. While the Department of Defense got a 
plus-up of about 12 percent as they plussed-up their readiness, 
we were not much above flatline. So if I was going to, you 
know, focus on one thing and a general subject, it is 
operational and maintenance funding to go toward improving our 
day-to-day readiness.
    Mr. Correa. Thank you very much.
    Now Ranking Member Lesko.
    Mrs. Lesko. No further questions Mr. Chair.
    Mr. Correa. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. Just very briefly.
    Mr. Murphy, you offered some helpful comments about sort-of 
the overall picture and it being a gradual and intentional 
process to expand resources, consulates, icebreakers, but many 
other things. I am curious how--you know, whether there is a 
similar process going on vis-a-vis allies.
    So you have on this sheet of the icebreakers that was made 
reference to earlier Canada, the Nordic states, Finland, 
Sweden, Denmark. They are all making investments. They seem 
rather modest. Can you character--and of course, we are looking 
at icebreakers here and all of that. But can you characterize 
that picture too? How about--you mentioned the Arctic Council, 
and I assume we do work--all those Nations do work there.
    But do our allies engage and are they prepared to expend 
the resources that the United States is expected to expend to 
respond to this problem?
    Mr. Murphy. That is a good question, and I think the answer 
to that question is yes. I mean, there has been a tremendous 
bump in investment in shared burden sharing challenges by the 
allies over the last several years, and that is a real 
positive.
    This administration deserves a lot of credit for affecting 
that change. But I also see, to use a specific example in the 
context of dealing with some of the emerging military 
challenges that the Russians are posing in the Arctic and in 
the North Atlantic. You see the Icelanders, for example, making 
investments in the Keflavik platform which we are using with 
our allies to conduct P8 missions.
    You have seen the Norwegians making investments in sensor 
technology and other areas so we know what is going on, 
situational and domain awareness. The United Kingdom is going 
to get back into the P8 antisubmarine warfare mission, 
something they had gotten out of at the end of the Cold War, so 
there are changes taking place. They take longer to come on-
line than we would all like, but they are happening.
    Mr. Bishop. Thank you, Mr. Chairman. I yield back.
    Mr. Correa. Mr. Van Drew.
    Mr. Van Drew. Just one quick question and one remark.
    Ms. Mak, you said, you know, obviously we have to get these 
things accomplished and done before it is too late. I agree 
with you, by the way. What would you characterize as too late, 
just complete control of the area by all these other nations, 
or how would you characterize that?
    Ms. Mak. My perspective is really from an acquisition 
perspective and really meaning that as the Coast Guard is 
pursing the polar security cutter, it needs to do things the 
right way and have the right appropriate knowledge before it 
moves forward to construction because we have seen a lot of 
other--a lot of work in our shipbuilding reviews where there is 
pressure to move forward and award construction.
    They start building the ship before the design is complete 
numerous times on Navy ships and Coast Guard ships. It ends up 
costing more and taking longer in the long run because they 
have to rework it, or the contractor has to pull a part out 
because the design got changed later on, and all that ends up--
there is a lot of back and forth, and it ends up taking a lot 
longer and costing longer.
    As a Nation, as a country that needs to project in the 
Arctic, I think we can't afford to have those kind of delays, 
so we are asking the Coast Guard to be committed, and they have 
shown indications of that, to do it right the first time 
around.
    Mr. Van Drew. OK. Thank you. The Chairman had made note of 
how much the Coast Guard is doing all over the world and with 
limited resources and how amazing it is. I would just remind 
him that their initial training is in Cape May, New Jersey, so 
that might explain part of it.
    Mr. Correa. Are you arguing for more training or less?
    Mr. Van Drew. I am arguing for anything I can get down 
there.
    Mr. Correa. Good answer.
    I want to thank our Members of the committee, our witnesses 
for their valuable testimony. Members of the committee may have 
additional questions for the witnesses, and I would ask that 
you respond expeditiously in writing to those questions when 
they do present them.
    Without objection, the committee record will be kept open 
for 10 days.
    Seeing no further business for this committee, this 
committee stands adjourned. Thank you very much.
    [Whereupon, at 11:13 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
